<html>
<title> - PRIORITIZING INTERNATIONAL RELIGIOUS FREEDOM IN U.S. FOREIGN POLICY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
  PRIORITIZING INTERNATIONAL RELIGIOUS FREEDOM IN U.S. FOREIGN POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2011

                               __________

                           Serial No. 112-64

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
66-782                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dabdaab59ab9afa9aeb2bfb6aaf4b9b5b7f4">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Leonard Leo, chairman, U.S. Commission on International 
  Religious Freedom..............................................     7
Mr. Thomas Farr, director, Religious Freedom Project, Berkley 
  Center for Religion, Peace, and World Affairs, Georgetown 
  University.....................................................    41
Mr. Joseph Grieboski, founder and chairman of the board, 
  Institute on Religion and Public Policy........................    50
Mr. Brian Grim, senior researcher and director of Cross-National 
  Data, Forum on Religion & Public Life, Pew Research Center.....    64

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Leonard Leo: Prepared statement..............................     9
The Honorable Frank R. Wolf, a Representative in Congress from 
  the Commonwealth of Virginia: Prepared statement...............    36
Mr. Thomas Farr: Prepared statement..............................    44
Mr. Joseph Grieboski: Prepared statement.........................    53
Mr. Brian Grim: Prepared statement...............................    67

                                APPENDIX

Hearing notice...................................................    86
Hearing minutes..................................................    87
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California: Prepared statement....................    88
The Honorable Christopher H. Smith: Letter in support of H.R. 
  1856...........................................................    89
Written responses from Mr. Leonard Leo to questions submitted for 
  the record by the Honorable Russ Carnahan, a Representative in 
  Congress from the State of Missouri............................    92
Written responses from Mr. Brian Grim to questions submitted for 
  the record by the Honorable Russ Carnahan......................    94


  PRIORITIZING INTERNATIONAL RELIGIOUS FREEDOM IN U.S. FOREIGN POLICY

                              ----------                              


                          FRIDAY, JUNE 3, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 334 Cannon House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order.
    And I want to welcome our distinguished witnesses and our 
guests to this morning's hearing.
    The subcommittee will be examining the role of 
international religious freedom in the U.S. foreign policy, 
particularly in light of the International Religious Freedom 
Act and the amendments being proposed to that act, H.R. 1856, 
the International Religious Freedom Act Amendments of 2011.
    I had the privilege of chairing the committee hearings in 
the 1990s that prepared the passage of the 1998 International 
Religious Freedom Act. The act provided our administration with 
the tools necessary to make international religious freedom an 
integral component of the highest priority in U.S. foreign 
policy. Contrary to assertions that singling out religious 
freedom would somehow make it seem more important or separated 
from other fundamental human rights--and I would note 
parenthetically, the Clinton administration asserted that its 
strong opposition to the act at the time was based on its 
belief that the act would result in a ``hierarchy of human 
rights.'' I remember Assistant Secretary of State for 
Democracy, Human Rights and Labor John Shattuck appearing at 
our hearings saying that it would establish a hierarchy of 
human rights, to which I responded repeatedly and to all those 
who made that argument, when we fought to ensure that Soviet 
Jewry and Soviet Jews immigrated, the Jackson-Vanik Amendment 
was value-added. It was not in lieu of any other legislation. 
And in like manner the effort to combat apartheid. And I was 
one of those on the Foreign Affairs Committee who supported 
vigorous sanctions to combat apartheid against that infamous, 
racist regime in South Africa. That too was in addition to not 
in lieu of any other rights policy.
    So those of us who championed the bill argued that it was 
necessary to ensure that religious freedom was given its 
rightful place. It had been largely displaced in successive 
administrations and it was time to make religious freedom a 
core component of U.S. foreign policy.
    Unfortunately, the urgent call within IRFA to vigorously 
monitor and defend religious freedom as part of U.S. foreign 
policy has not been fully heeded. Religious freedom is 
threatened around the world, and the situation is getting 
demonstrably worse. Two years ago, the U.S. Commission on 
International Religious Freedom recommended that eight 
countries be designated as Countries of Particular Concern, or 
CPC status. In the 2011 USCIRF annual report released in April 
said that we are looking at 14 countries: Burma, the Democratic 
People's Republic of Korea or North Korea, Egypt, Eritrea, 
Iran, Iraq, Nigeria, Pakistan, the People's Republic of China, 
Saudi Arabia, Sudan, Turkmenistan, Uzbekistan and Vietnam.
    The basic human rights of hundreds of millions of people 
are being violated each and every day. Their own governments 
are either direct perpetrators of religious freedom violations 
or fail to prosecute violations by other citizens, creating a 
climate of impunity.
    Dr. Brian Grim, one of our witnesses this morning, has done 
significant research in this area. In a study he conducted in 
2009, he found that nearly 70 percent of the world's 6.8 
billion people live in countries with high or very high 
restrictions on religion. His study specifically cited Iran, 
Pakistan, China and Egypt as among the most repressive of 
religious expression. This is significant, not only because it 
highlights the number of people denied the most fundamental of 
human rights, but also because religious freedom is comprised 
of a ``bundle of rights.'' Religious freedom implies freedom of 
conscience, freedom of speech, freedom of association and 
assembly, and even freedom of the press. Absent freedom of 
religion, all these other rights are in jeopardy.
    In fact, Dr. Grim's research shows that countries that 
respect these rights reap a host of socio-economic benefits, 
including better education, better health care, greater equity 
of pay between men and women, and higher GDP, and these 
benefits arguably lead to greater social stability. On the 
other hand, countries without respect for religious freedom do 
worse on these socio-economic indicators, have greater societal 
tension, and are more prone to instability. The importance of 
promoting all components of religious freedom, therefore, 
cannot be overstated. Not only is it a moral imperative, but 
religious freedom keeps extremism and tyranny at bay.
    For these reasons, U.S. leadership on religious freedom is 
desperately needed in many countries around the world, together 
with a more vigorous, robust utilization of the means provided 
in the IRF Act for promoting religious freedom and human 
rights. For example, the administration urgently needs to 
reassess its list of Countries of Particular Concern, 
particularly Egypt. As a result of severe and systematic 
religious freedom abuses against religious minorities, 
particularly Coptic Christians before and after the removal of 
President Mubarak, USCIRF is now recommending that Egypt be 
designated as a Country of Particular Concern.
    The Obama administration has yet to make any CPC 
designations since coming to office. I strongly encourage the 
administration to review carefully the recommendations made by 
the Commission, call out those countries that are engaging in 
``particularly severe violations of religious freedom,'' to 
quote from the act and apply meaningful sanctions as authorized 
under the International Religious Freedom Act.
    The CPC designation is just one of many mechanisms in IRFA 
that need to be pulled out of the closet and reinvigorated. We 
will also look at how to strengthen the State Department's IRF 
office, the Commission, the engagement of our diplomatic corps, 
and the IRF Act itself.
    I would just add--and I just would ask a member of my 
staff, if you could just hold up a couple of posters--it seems 
to me that when the administration does finally get around to 
designating CPC--and again I listed the countries that we 
believe, or I believe, should be added, they should look at 
what has happened in Vietnam--Vietnam has deteriorated so 
quickly after the Bilateral Trade Agreement, after the 
situation of ascension into the World Trade Organization and 
MFN, obviously, by the United States--Father Ly and so many of 
those brave men and women in Vietnam who have spoken out for 
religious freedom have either been rearrested, tortured or 
under house arrest once again.
    Charter 8, Bloc 8406, which was the equivalent of many of 
those charters that we saw in Eastern Europe, including Charter 
77 led by Vaclav Havel, has become a list of individuals that 
now the Government of Vietnam is hunting down and putting into 
prison and meting out very severe tortures to those 
individuals.
    That is a picture over there of Vietnam today--of Father Ly 
at his sentencing. And he, just like so many others, the 
venerable Thich Quang Do and many others, have suffered and we 
have been silent.
    If you look at this picture here, that was in the early 
1990s on a trip that I took, one of many, to the People's 
Republic of China. Bishop Su, a Roman Catholic Bishop of 
Baoding Province, had spent years in prison prior to being re-
arrested in 1997 and now has not been heard from since. When 
you ask the Chinese Government, ``Where is Bishop Su?'' they 
say, ``We do not know.'' What an unmitigated lie and nonsense. 
He may have been killed. He has been recognized at least on one 
occasion in a hospital with his face all puffed out, presumably 
having been beaten once again. Here is a man that when I met 
with him in our small delegation he had no malice whatsoever 
for the Chinese Government and told me and the others in that 
picture that he prayed for those who tortured him and hoped for 
a day when China would be free.
    And finally, Gao. Gao is a man who is a human rights 
defender, a lawyer who has spoken up on behalf of the 
persecuted church and especially on behalf of the Falun Gong in 
the People's Republic of China. He's been missing almost 900 
days. Again, he had been tortured without mercy, cattle prods 
put on his genitals, inside his mouth, under his arms and 
throughout his body. Here is a human rights defender that we 
need to speak out for. He has made religious freedom one of his 
most important issues. He now languishes in prison, probably 
being tortured as we meet here today.
    He is one of three individuals that I and others asked be 
named as Nobel Peace Prize recipients. Liu Xiaobo was one of 
those three. He was recognized. Of course, people like Vaclav 
Havel also had nominated him. But Gao remains unknown. We 
believe he is incarcerated and being subjected to hideous 
tortures as we meet here at this hearing.
    I would like to yield to my good friend and colleague Mr. 
Payne, ranking member of our subcommittee.
    Mr. Payne. Thank you very much. And I thank the chairman 
for calling this very important hearing and our panelists of 
esteemed witnesses for joining us here today.
    As we know, religious freedom is a serious concern 
globally. According to a study by the Pew Research Center 
nearly 70 percent of the world's population live in countries 
with high or very high restrictions on religious practice. This 
is particularly troubling, as many experts assert that the 
absence of religious freedom is highly correlated with 
unsustainable democracies, low economic growth, low female 
literacy rates and religious extremism.
    I look forward to hearing from our esteemed witnesses today 
about the global trends in religious freedom, as well as 
successful policy interventions and recommendations for further 
action. Unfortunately, restrictions on religious practice are 
pervasive. Some are driven by authoritarian regimes such as 
China whose progression opposition to Falun Gong, just to name 
one of the many oppressed groups, is well documented. For 12 
years now thousands of practitioners of peaceful spiritual 
movements have been harshly persecuted by their governments 
with tens of thousands more were sentenced to forced labor 
camps. The Chinese Uyghur minority also suffered harsh 
repression of the religious practice.
    The Chinese Government restricts public access to mosques, 
the training and role of imams, the celebration of Ramadan and 
participation in hajj, the Muslim pilgrimage to Mecca. 
Religious oppression also reared its ugly head in the recent 
Arab Spring Movement. In Bahrain, one of the Sunni Muslim 
regime's responses to peaceful protestors who were mostly 
Shiites seeking more political rights was to bulldoze nearly 30 
ancient mosques, a breathtaking assault on a protestor's right 
to free practice and freely practice their religion. Such 
religious oppression is perilous as it only escalates and 
promotes dangerous social discord.
    Unfortunately, a Pew study reported that worldwide the 
Middle East and North Africa region has the most severe and 
highest rate of government and social restrictions on religion. 
We should remain vigilant about combating religious 
discrimination in the West. Efforts in some European countries, 
mainly France, to effectively ban Muslim women from wearing 
head scarfs or veils as well as the Swiss ban on the 
constructions of minarets and on mosques remind us that these 
restrictions on religious freedom can be imposed by our 
democratic allies in Western Europe. We do not have to look far 
into the recent history to see the dangerous consequences of 
such lack of pluralistic tolerance with today's appearance of 
Ratko Mladic in front of the International Criminal Tribunal 
Yugoslavia for the genocide against Bosnian Muslims in 
Srebrenica among other crimes against humanity reminds the 
world that once again of the tragic consequences of sectarian 
and national violence.
    In Sudan, Khartoum's attempts to severely restrict 
religious freedom and helped fuel the country's decade long 
civil war between the North and South. To date, Sudan still 
remains a Country of Particular Concern for severe violations 
of religious freedom and religion, continues to undergird 
political alliances.
    Elsewhere in Africa, Eritrea also remains a Country of 
Particular Concern because of the government's poor record on 
subjecting religious prisoners to harsh conditions, exercising 
control over officially registered groups and harassing members 
of unregistered groups.
    In other countries the lack of religious freedom is driven 
by social hostilities rather than official government policies. 
Yet as governments tolerate such social intolerances, they in 
effect condone it. In Nigeria, for example, as many as 13,000 
Nigerians died due to sectarian violence in the last 12 years. 
The government's failure to forcefully react to such ongoing 
egregious violations of religious freedom and their failure to 
work to prevent and contain religious motivated violence is 
extremely concerning.
    In Egypt we see social hostility increasing against the 
local Coptic Christians. Such disturbing trends require 
vigilance and swift response.
    Mr. Grim, I look forward to your testimony on religious 
freedom trends globally, especially in Africa.
    The United States is unique in that it defines religious 
freedom as not only an American value, but a core objective of 
American foreign policy. Our exceptional global leadership is 
enshrined in the International Religious Freedom Act which is 
designed to promote religious freedom and fight persecution. 
With the act, the Congress created the International Religious 
Freedom office at the State Department charged with 
highlighting the status of freedom of religion globally as well 
as a related ambassador-at-large position to recommend 
appropriate diplomatic actions.
    Ambassador Suzan Johnson Cook was sworn in by the Secretary 
just yesterday. Her priority countries she intends to visit in 
2011 include includes Egypt, Pakistan, Afghanistan, China, 
Vietnam, Saudi Arabia, Nigeria and others. The Department is 
implementing tool kits that identify appropriate and achievable 
strategies for Countries of Particular Concern and other key 
countries to raise religious freedom issues with their 
diplomatic counterparts and other influences. Such individuals' 
high profile efforts are unique and effective. Thus, at the 
first U.S.-China Human Rights dialogue under the Obama 
administration religious freedom was one of the three main 
agenda items resulting in the Chinese agreeing to participate 
in a working group on religion.
    The IRF office has also significantly expanded its 
engagement with inter-religious networks to advance religious 
freedom, foster respect, and decrease sectarian violence. The 
office played a significant role in participation in the U.S. 
sponsored Interfaith Collaboration Conference in Indonesia in 
Bangladesh, the Vatican and Geneva. The conference in Indonesia 
led to the establishment of that nation's first inter-religious 
council, a body that is actively promoting harmony between 
faith communities.
    In addition, the IRF Office and the State Department, 
Congress created the independent U.S. Commission for 
International Religious Freedom. Thanks to this institution or 
infrastructure we were able to intervene in countries that 
grievously violated religious freedoms.
    In Eritrea, for example, where we observed systematic 
ongoing and egregious violations of religious freedom, the Bush 
administration reacted by imposing sanctions on all defense 
articles and service with few exceptions for the purpose of 
national security which the current administration continues to 
uphold.
    In Nigeria, USAID established the 5-year $4.5 million 
program to provide conflict mitigation assistance in northern 
and middle belt states that has the recognition of sectarian 
tension.
    In Afghanistan the State Department's use of quiet 
diplomacy contributed to the release of two Afghan converts 
from Islam who had been charged with apostasy.
    These are just a few examples of our efforts to advance 
religious pluralism and tolerance. More needs to be done and 
more tools to promote inclusive societies need to be explored. 
For example, we should explore ways to facilitate education 
exchange between people of different backgrounds and religions 
as an instrument for combating religious repression.
    Mr. Leo, Mr. Farr, Mr. Grieboski thank you again for your 
being here today, and I look forward to your testimonies about 
the countries and regions that require continued vigilance, as 
well as best practices and policy recommendations that we can 
get for you. And actually, Chairman Berman intended to be here, 
was unable to come, and Mr. Chairman, he has an opening 
statement that he would like admitted to the record.
    Mr. Smith. Without objection so ordered. Thank you.
    Thank you, Mr. Payne.
    I would like to now welcome to the witness table our first 
witness, Mr. Leonard Leo, who is the chair of the U.S. 
Commission on International Religious Freedom and has served on 
the Commission since 2007.
    The Commission was created, as we all know, by the 
International Religious Freedom Act of 1998 and has the 
legislative mandate to review the facts and circumstances of 
religious freedom violations presented in the administration's 
Human Rights and International Religious Freedom reports and to 
make policy recommendations to the President, the Secretary of 
State, and the Congress with respect to international religious 
freedom matters.
    Mr. Leo has served as Executive Vice President of the 
Federalist Society for Law and Public Policy Studies and 
participated actively in a number of international forums, and 
played a major role at the United Nations, most recently on the 
defamations resolution, which actually had a very positive 
outcome. He worked very closely with Congress and especially 
with the administration to ensure that the defamation 
resolution did not move forward. And at the end of the day, it 
was Pakistan that tabled a resolution that comported much more 
closely with the U.S. and what has been the universal 
recognition of religious freedom as an individual right of 
conscience to practice as one sees fit.
    So, I want to thank Mr. Leo for his leadership on that, and 
so many other issues related to religious freedom.

  STATEMENT OF MR. LEONARD LEO, CHAIRMAN, U.S. COMMISSION ON 
                INTERNATIONAL RELIGIOUS FREEDOM

    Mr. Leo. Chairman Smith and Ranking Member Payne, I am 
grateful for the opportunity to testify today about the role of 
the U.S. Commission on International Religious Freedom or 
USCIRF, the world's first and only Commission of its kind in 
strengthening the promotion of freedom of religion or belief in 
U.S. foreign policy.
    And I am joined here today by one of my fellow 
Commissioners Mr. Ted Van Der Meid.
    I would request that my full written statement be placed in 
the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Leo. Let me stress the importance of Congress acting 
promptly on H.R. 1856, the International Religious Act 
Amendments of 2011 introduced by Representative Frank Wolf as a 
means of strengthening U.S. religious freedom promotion by 
reauthorizing USCIRF. Through reauthorization our Commission 
will remain an independent bipartisan Federal agency that 
monitors international religious freedom conditions and 
provides recommendations to the President, the Secretary of 
State, and Members of Congress.
    The importance of this work cannot be overstated. Religious 
freedom is humanity's first freedom, but religious freedom is 
also critical to our foreign policy and national security, 
especially in a post-9/11 world. Countries that protect 
religious freedom are more peaceful, prosperous, democratic and 
stable. Nations that do not protect this freedom provide 
fertile ground for poverty and insecurity, war and terror and 
violate radical movements and activities.
    Unfortunately around the world, attacks on religious 
freedom occur with alarming frequency. This is why Congress 
passed the International Religious Freedom Act of 1998 or IRFA 
which mandated the creation of USCIRF. USCIRF gathers key 
information at home and overseas. We issue annual reports to 
Congress. We advise and work closely with Members of Congress 
and with White House and State Department officials. We 
participate in multilateral meetings. We get out our message 
through the media and consult with civil society and religious 
groups. We leverage the strengths and the access we have at 
minimal cost to the taxpayer.
    Each year USCIRF recommends that the Secretary of State 
designate as Countries of Particular Concern or CPCs those 
nations that commit severe religious freedom violations. For 
2011 USCIRF has recommended 14 countries to be so designated: 
Burma, China, Egypt, Eritrea, Iran, Iraq, Nigeria, North Korea, 
Pakistan, Saudi Arabia, Sudan, Turkmenistan, Uzbekistan, and 
Vietnam. This administration's State Department has yet to make 
any designations, although we are told that they are imminent.
    USCIRF also recommends that certain countries be closely 
monitored. For 2011 we included in our Watch List: Afghanistan, 
Belarus, Cuba, India, Indonesia, Laos, Russia, Somalia, 
Tajikastan, Turkey, and Venezuela.
    USCIRF has had important successes in focusing U. S. 
Government attention on religious freedom issues. For example, 
in Sudan in order to avert another religiously related war, 
USCIRF called for direct U.S. engagement toward implementing 
the Comprehensive Peace Agreement and was instrumental in 
strengthening ties between South Sudan's government and 
religious groups essential for facilitating voter education and 
turnout for the independence referendum.
    In Saudi Arabia, we have raised concerns about the 
production of extremist literature and its exportation. Due to 
our raising concerns before and during our winter visit, six 
young Shi'a Muslims were released in February.
    In Nigeria, after USCIRF visited the country following 
escalating violence between Christians and Muslims and raised 
the issue of impunity with high level government levels, the 
government brought prosecutions for the first time in a decade 
against violent perpetrators.
    In Iran, in response to severe religious freedom 
violations, USCIRF worked with Congress to produce the first 
ever sanctions against Iran for human rights violations. 
President Obama sanctioned, among others, seven Iranian 
officials that USCIRF had recommended.
    And at the U.N., USCIRF was a catalyst with the current 
administration and Congress leading to a historic breakthrough 
in March when the defamation of religions resolution favoring a 
global blasphemy standard was not introduced in the Human 
Rights Council of the U.N.
    These are important religious freedom achievements, but 
there is so much more to do. Our Government should pressure 
countries to abolish laws that oppress religious minorities. 
Our Government needs to expect that countries will stop the 
exportation of extremist ideology and we need to partner with 
them in finding solutions. And our Government needs to demand 
that countries bring to justice the perpetrators of religiously 
related violence and where capacity is lacking, we need to find 
ways to help.
    These are objectives that advance the worth and dignity of 
all people, and importantly bolster our own nation's stability 
and security in today's interconnected world.
    It is our Commission's hope and goal that religious freedom 
will become more fully integrated into U.S. foreign policy for 
both humanitarian and national security reasons. By ensuring 
that we are reauthorized before our sunset date on September 
30th, USCIRF will be able to continue to facilitate achievement 
of the same and will be able to build on our valuable 
relationships with you who serve in Congress toward that end.
    And, Mr. Chairman, if I might make one other comment. I 
gather last night the Lautenberg Amendment had expired. The 
Commission has over the years been very supportive of this 
amendment because it has, as you know, provided a valve for 
religious minorities and others who are persecuted in Iran to 
be able to leave that country. And so as you work through a 
number of these different issues related to religious freedom, 
we would hope that the Lautenberg Amendment will be reenacted.
    And thank you for the opportunity to be here this morning.
    [The prepared statement of Mr. Leo follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much for your testimony, and 
having read your full statement, it is very comprehensive and 
provides us with very, very useful insights as to how to 
proceed.
    Let me ask you first if the International Religious Freedom 
Act is not reauthorized--because we all know that a lot of good 
bills in the House or Senate, often in the Senate, you know 
through inaction or through when they hotline it something 
happens along the way, somebody just refuses to allow it floor 
time--what would be the consequences if the act were not 
reauthorized?
    Mr. Leo. Well, I think there are both domestic and 
international consequences.
    Domestically, USCIRF has been a very important resource for 
Congress and for administrations in terms of making 
recommendations about how to bolster our U.S. foreign policy 
and our national security agenda in ways that promote freedom 
of religion abroad. And so I think we would lose an important 
resource there.
    I also think that Congress' failure to reauthorize USCIRF 
sends a signal to both the executive branch and to, 
unfortunately, the civil society world that religious freedom 
is not as important to our Government as it used to be. And 
that, of course, then in turn sends an even more unfortunate 
signal to the rest of the international community.
    You know, right now we have a commission and an 
infrastructure that is unique in the world, one that has I 
think in a number of instances been able to have a lot of 
leverage over foreign governments, that is both USCIRF and our 
Ambassador-at-Large. And in the absence of that infrastructure 
certainly if it were just allowed to die on the vine, I think 
many countries would view that as a signal that we were no 
longer focused on this issue and that they are allowed to 
engaged in the kinds of abuses we have seen with impunity.
    Mr. Smith. I referenced in my opening comments the extreme 
hostility, and it was hostility, toward the legislation by a 
previous administration, by the Clinton administration, 
although Bill Clinton did sign it. And, you know, we were 
always very grateful for that fact. But sometimes you can sign 
a bill and then refuse to implement it in a robust way.
    And Tom Farr who ran the office for 4 years points out that 
no administration can claim we will have advanced religious 
freedom in a substantial way. Religious freedom has always been 
orphaned within the State Department.
    Mr. Wolf and I have traveled all over the world on 
religious freedom issues, and time and again we find it is an 
asterisk to human rights in general or page 4 down at the 
bottom on talking points and religious freedom demoted even 
further. And usually the Foreign Service officer tasked with 
religious freedom issues is someone very, very low on the totem 
poll and the Ambassador, the DCM and others see it as an 
irritant. And that has been 31 years of my experience 
traveling. Even during the worst days of Soviet repression of 
Jews, my first trip to the Soviet Union was with the National 
Conference of Soviet Jewry in January 1982. And at the same 
time, the Siberian 7 Pentecostals had made their way into our 
Embassy seeking protection from the cruelty that was meted out 
against them. And many people in that Embassy were profoundly 
unhappy to have them at the Embassy because it complicated our 
diplomatic relations with Moscow.
    And I was sickened by it, frankly. And we have seen it time 
again, Mr. Wolf and I, who has now joined us, the author of the 
International Religious Freedom Act. There are some FSOs, 
Foreign Service officers who care deeply, but there are many 
who see this, including ambassadors, as an irritant.
    And you might want to comment on the culture. One of the 
provisions of IRFA was to train Foreign Service officers so 
that they would be not just sensitive to, but would embrace, 
the cause of religious freedom. Has that happened?
    Mr. Leo. Well as you rightly point out, Mr. Chairman, 
religious freedom has always been a very difficult issue to get 
to the forefront of our foreign policy and national security 
agenda. This has been the case in every Presidential 
administration. The challenge always in public diplomacy is to 
take that whole basket of issues; trade, security, human 
rights, religious freedom in particular, and to find a way to 
engage countries on all of them. What I think we have to do is 
we have to educate diplomats and Foreign Service officers that 
freedom of religion or belief is an essential part of ensuring 
that countries in our world more generally are stable, 
prosperous and secure.
    We know from events in recent history that there is a 
tremendous interrelationship between the extent to which 
freedom of religion is protected and prosperity and stability.
    You are quite right that education to some extent is not 
where it needs to be right now. There is a course that will be 
instituted soon, in fact I think it may have even started this 
week, for Foreign Service officers, but it is not yet part of 
the core curriculum, and that needs to happen.
    Also I think that within the State Department it is very 
important for the Ambassador-at-Large to have the kind of 
direct access that she needs to the President and to the 
Secretary of State. And I had the privilege of seeing our new 
Ambassador-at-Large Suzan Johnson Cook yesterday. She is a 
captivating, intensely committed woman who understands the 
importance of human rights. And it is my hope that she will be 
given the kind of resources and access that she needs to help 
to put this issue in front of the bureaus in the State 
Department, the National Security Council, at the White House 
and others.
    Mr. Smith. Let me ask if you could comment on the rising 
tide of persecution against Christians, particularly in places 
like China. You know it was not lost on Beijing that it was 
people of faith, largely, whether it be in Romania, whether it 
be what empowered Lech Walesa to lead his fight and 
Solidarity's fight in Poland, and my experience backs that up 
that it was often people of faith in each of the countries that 
led to the demise of the Soviet Empire. The lesson learned by 
Beijing is that you need to crush faith-based people. And 
Christians, which after the United States, it is estimated that 
China has more Christians then any other country in the world, 
most of them living underground and attending underground 
churches.
    Pope Benedict XVI made the point in a statement that AP 
carried on December 16th that at present Christians are the 
religious group that suffers most from persecution on account 
of faith. The Pontiff asserted this and cited Christian 
communities suffering from violence and intolerance, 
particularly in Asia, Africa, the Middle East, and the Holy 
Land. And, of course, Asia, China and North Korea being among 
the worst violators on the face of the earth. And your thoughts 
on that and on the Pope's statement?
    Mr. Leo. We have seen three disturbing trends regarding the 
plight of Christians around the world. One would be outright 
persecution. So for example, the application of laws like 
blasphemy or apostasy laws that can result in torture, 
execution, imprisonment or laws that are invoked to confiscate 
property, to desecrate property of religious communities around 
the world.
    Secondly, we have seen a significant uptick in impunity. 
Basically the kind of violence, Mr. Payne, that you mentioned 
that occurs in various parts of Africa where essentially there 
are individuals who strike out against Christian communities 
and they are never brought to justice by the governments. We 
have seen an uptick of this, and that is part of the reason why 
the Holy Father, as well as actually President Obama at the 
very end of last year, talked about this issue in connection 
with the Coptic Christians in Egypt and also mentioned Nigeria.
    And then the third kind of trend we have seen is an 
increase in controls on the hierarchies or institutional 
infrastructure of Christian churches. So, you will see for 
example countries like China trying to control the priests who 
may be ordained or the ministers who may take over a particular 
church. You may see controls on the institution of seminaries, 
or outright bans on seminaries in some cases to dwindle down 
the number of religious who are able to minister to their 
communities.
    So, those are the three areas where we have seen an uptick 
in various kinds of prohibitions, suppression, and persecution 
against Christians.
    And by the way, for what it is worth, many of these 
oppressive governments are equal opportunity persecutors. So 
you will see in a lot of these countries persecution against 
lots of other religious minorities. As you know, in Asia for 
example the Buddhists and others are equally persecuted. There 
are many Muslim communities around the world that are facing 
the brunt of discrimination and oppression by governments, too. 
So there has been an uptick, certainly for Christians and there 
has been a lot of focus on that because of what has been going 
on. And then also quite a number of other religious minorities 
around the world.
    Mr. Smith. At the appropriate time we will have the 
administration here, and there will be a second hearing, we 
will ask the administration why they have not, since the Obama 
administration has been in office, designated countries either 
on the CPC list or not. I mean, we are well into this 
administration. It seems to be a glaring omission that has been 
made by them. What is your thought?
    Mr. Leo. Well, we have called for CPC designations by this 
administration as well as the previous administration when it 
was not moving fast enough. And we very much hope that those 
designations are imminent.
    You know, there are a couple of problems here. It is not 
simply the fact that there are not designations. It is what 
happens after a country is designated, what do we do about it? 
You know, there are sanctions that are available. There are 
various kinds of things that our country could be doing once a 
country is designated, engage them. But what historically has 
happened is that sanctions are generally not applied. Only one 
country, and I think, Mr. Payne, you mentioned it, Eritera. 
Eritera is the only country that has sanctions specifically 
directed against it under IRFA. All the other countries that 
have sanctions, they have double hatted them under other 
statutes. And in addition to that, you know quite often these 
countries may receive waivers. So, for example, Saudia Arabia 
has an indefinite waiver.
    So it is not just the designations but it is also what 
happens after: What can we do to get officials within our 
executive branch to think seriously about how to leverage that 
designation through sanctions or bilateral negotiations, or 
other forms of pressure?
    Mr. Smith. I would agree with you on sanctions. If it goes 
unused, it becomes impotent. And there was actually a delay, as 
you know, in the bill--with the 18 sanctions prescribed in the 
bill--so that there could be an opportunity for the country to 
make whole and take some remedial action. But if you do not 
drop the sanction after you designate the country a CPC, it 
becomes, not a useless, but a very much diminished threat. So, 
I think your point is well taken.
    Let me just finally ask you about what you say is arguably 
the most glaring omission to the State Department CPC list--
Pakistan. And all of us, obviously, mourned the assassination 
of Minister Bhatti when he was brutally slain, a man who had 
called for an end, certainly a mitigation, of the blasphemy 
laws in Pakistan. Do you think that is likely to happen within 
the State Department?
    And secondly, if I could, he was sitting where you are 
sitting, on two occasions, I chaired hearings on anti-Semitism 
when we had Natan Sharansky testify. And he made a very 
compelling argument that the rising tide of anti-Semitism is 
being spread through mass media, through soap operas. He 
actually brought a soap opera that he showed us here of blood 
libel. He said this is what many in the Arab community, 
especially the young, feed on and think is true.
    In it he showed this young boy, Christopher, which is shown 
on Arab TV broadcasts on satellite television throughout Europe 
and the United States, being killed, his throat slit in order 
to put his blood into matzah. And he said we think it is a 
horror movie, they think it is real. And if you inculcate that 
into the youth, it only leads to more anti-Semitism.
    He also, as he did at the OSCE Conference on anti-Semitism 
in Berlin, talked about the three ``D's'' that are very veiled 
excuses for anti-Semitism: Demonization, delegitimization, and 
denial of Israel's right to exist. That when anyone of those 
three are present you can be very sure it is really at its core 
anti-Semitism.
    I know we have a separate office, because I actually 
authored the legislation to create it, but do you believe that 
IRFA has been effective in combating anti-Semitism? And I would 
just add to that, there was a hearing on the Senate side about 
Muslim and acts against Muslims here in the United States. The 
FBI chronicles hate crimes. Christians? It is under 9 percent 
in the United States. Muslims? It is under 9 percent within the 
United States in terms of hate crimes based on religion. For 
Jews, it is 75 percent, even though the Jewish population makes 
up less then 2 percent of the U.S. population, about 5-6 
million people. Totally disproportionate, and yet there are 
some people somehow in the United States that think that there 
is an equivalency.
    The Jews, there is a rising tide of anti-Semitism even 
here. I know it is State Department, but obviously it has 
cross-over effects into what we do abroad and what we should 
also be teaching and promoting here. What are your thoughts on 
that, as well as Minister Bhatti?
    Mr. Leo. Well, first on Pakistan. We, the Commission, had a 
very close relationship with Minister Bhatti and we were 
shattered when we heard of his assassination. He was probably 
the brightest light for human rights and religious freedom that 
Pakistan had at that time. And his assassination was a 
tremendous blow to progress in that country. So that is a very 
serious matter and one that we really are grieving over.
    We do want to see Pakistan as a Country of Particular 
Concern. We do not believe that keeping them off the CPC list 
is a way to see progress in that country. It has not worked and 
it will not work in the future.
    This is a country that has one of the most oppressive and 
misused blasphemy laws in the world. It has been a major 
proponent of the worldwide blasphemy standard. And it is a 
country that has been known for exporting extremist ideology 
throughout North and sub-Saharan Africa.
    When you visit Nigeria and you talk to security officials 
in Nigeria. When you visit Kano and Kaduna in the North, you 
will find materials--you will find materials that have been 
exported from madrassahs in Pakistan that are hateful and 
inciteful in the way they treat religious minorities or 
Christians in that country.
    And so the situation in Pakistan is very serious. Impunity 
is rampant. They are exporting extremism in ways that is very 
troubling for our national security and human rights regime 
internationally. And they should be deemed a CPC and we should 
begin to pressure them in whatever way possible to begin to 
rollback some of the oppressive laws they have, which in turn I 
think would gradually change that culture.
    With regard to anti-Semitism, of course this is a multi-
jurisdictional issue, but you know there has been some 
attention to anti-Semitism under IRFA. You know, two countries 
come to mind: Russia and Venezuela.
    We have noticed an increasing trend in Russia over the 
years, less attention to dealing with hate crimes related to 
anti-Semitism. And one of the reasons that we continue to keep 
Venezuela on our watch list is because they have not brought to 
justice individuals in their country who have vandalized 
synagogues and other important places that are gathering points 
for the Jewish community in Venezuela.
    So we have tried to put a spotlight on those issues. I 
think IRFA can be an effective mechanism for doing that. What 
does have to happen, though, is that our Commission and the IRF 
Office needs to work with the special ambassador that is 
appointed for those issues so that there can be some 
coordination and collaboration. And we did meet with her 
earlier, I guess late last year, and we hope to continue to 
work with that office and find points of leverage that we can 
begin to use to combat anti-Semitism.
    Mr. Smith. Mr. Payne?
    Mr. Payne. Thank you very much for your testimony and for 
the outstanding work that you do.
    Just sort of a general question and then your opinion. Do 
you think that religious tolerance worldwide is improving or do 
you think that there is sort of a continued erosion? Just, I 
mean the world is big so I know it is not a simple answer, but 
just generally speaking.
    Mr. Leo. My own view is that it is eroding. And I think the 
fact that our Commission has, as I think the chairman pointed 
out, gone from eight CPC recommended countries 2 years ago to 
14 today is somewhat testament to that.
    We have seen an awful lot of instability and erosion in 
North and sub-Saharan Africa. We are very concerned as a 
Commission about the situation in Nigeria and in Eritera. We 
are deeply concerned about what may happen in Sudan. We are 
very troubled by the violence taking place in Abyei. As you 
well know, the inability to complete the Comprehensive Peace 
Agreement and really have a peaceful transition to independence 
could well result in another very bloody religiously-related 
war in that part of the world.
    We have seen an uptick in religious oppression and violence 
through the Middle East.
    China ebbs and flows, but things seem to be on an uptick 
there as well as in Vietnam.
    The Muslim communities in Central Asia, particularly 
Uzbekistan, Tajikistan and to some extent Turkmenistan seem to 
be under continued siege.
    The Indonesians, they are on our watch list. They have a 
mixed record but the fact of the matter is that they continue 
to refuse to recognize that their blasphemy laws and other 
forms of discrimination against the Ahmadiyah and other 
religious minorities are causing acts of impunity to take place 
there.
    So there is a real uptick in religious tensions and 
violence. And, Mr. Payne, it is happening in countries where it 
historically has not happened before.
    On the way back from Sudan last time we stopped in Ethiopia 
because, as you may remember, there were around 37 or so 
Protestant house churches that were torched. And when we were 
there we talked to some of the human rights officers and we 
were struck by the fact that this was new to them. This had not 
happened in recent history or memory in Ethiopia.
    We are seeing those incidents elsewhere around the world. 
Syria, which has been a very important safe harbor for 
Christians throughout the Middle East is now, of course, 
because of its instability a place where we have to be watching 
very closely.
    Uzbekistan, there are something like 4,000 or 5,000 
prisoners, many of them Muslims who are detained there simply 
for practicing their faith peaceably. And there seems to be no 
sign of reducing the size of that prison population through 
releases.
    So the situation is not good. And, of course, the economic 
crises that the world's facing makes it even harder, right? 
Because everyone is focused on trade and commerce and the 
economy and not focused as much as they ought to be on human 
rights, even though as you have all said those two issues are 
inexpiably intertwined and you are not going to solve the one 
without dealing with the other.
    Mr. Payne. Thank you very much.
    I also agree that in my opinion, too, there is an uptick 
particularly in Africa. There is up until the recent maybe past 
decade or so religion was really not a dividing force. And a 
family would have Christians, Muslims and it was just the way 
that the countries were. But as you have noted in Nigeria, for 
example, there is heightened tension, killings that go on.
    And in Eritrea, I visited there and you know with the 
President specifically on this whole question several years ago 
and said that they do not have religious persecution. It was 
interesting that I met with a number of religious groups and 
they, of course, were saying that they did not feel any 
religious persecution. Of course, I am not so sure that they 
were speaking the whole truth. However, it was interesting that 
there were a number of long term existing religions that they 
would sort of leave alone to some degree, even a Jewish temple 
actually in Eritrea.
    I met with maybe six or seven different religious groups, 
each just with that group. Because I really wanted to try to 
get to the bottom of what was going on. We did find that they 
totally excluded any new groups coming in. That was the 
argument that we do not want new groups that disrupt the 
family, that puts children against elders. And the ones that 
were there were okay, said the President. They were restricting 
those that wanted to come into the country.
    And so it was interesting to be able to go to these houses 
of worship and these people were talking freely about their 
religious freedom. Of course, I know that when maybe someone 
from the government happens to be in the group, they are not 
going to necessarily tell the full truth. But I just, to once 
again say, that I think that the situation that in the past was 
really not a big issue in Africa in general now is certainly 
raising its ugly head and is really becoming a very divisive 
issue.
    Mr. Leo. Mr. Payne, we would be very interested in working 
with you and others further on Eritrea. As you rightly point 
out, there are the older established religions there, orthodox 
Christians, Jews, some Catholics who do get treated better than 
some of the other minority faiths. And a lot of what happens in 
Eritrea around repression of people of faith often has 
political overtones to it: Concerns about political authority 
and security in the country and so forth. So it is one of the 
more complicated places where religion ends up bleeding into 
other issues that shape the political dynamic.
    We are very interested in trying to find some solutions in 
Eritrea and we have been grasping about trying to identify 
those. There may be opportunities there because I think that 
this new administration, in handling the sort of relations 
between Ethiopia and Eritrea, we may find a way of also opening 
doors in Eritrea and having more fruitful human rights 
discussions.
    So, if you or your colleagues have ideas for how we can 
perhaps create some points of leverage there, we would be very 
interested.
    Mr. Payne. That is great. I believe, too, there is an 
opportunity at this time. The question of Badme has sort of 
been downplayed. I visited there, actually, from the Ethiopian 
side and then went to Eritrea and was chastised by the 
President of why did you go through Ethiopia. Since it was 
easier to get there, that is all. But we have had some ability 
to have dialogue with the President there. Of course, it is 
very difficult as you know to deal with the other countries 
around, Djibouti and problems with of course Ethiopia. But I do 
think that that we may give it one last shot, and I would be 
very happy to work directly specifically on this issue with you 
on the religious situation.
    Thank you.
    Mr. Smith. Thank you very much, Mr. Payne.
    Regrettably, there is a vote on the floor. If Mr. 
Fortenberry returns, because he went over to vote first, he 
will reconvene the hearing and ask his questions of Mr. Leo. 
And then Mr. Wolf will be next after that.
    We stand in temporary recess.
    (Whereupon, at 10:29 a.m., the subcommittee recessed, to 
reconvene at 10:36 a.m., the same day.)
    Mr. Fortenberry. The hearing will now reconvene.
    Thank you, Mr. Leo, for your presence here, and I am sorry 
for the disruption. I know you have been up here before, but it 
is a way of life. It is particularly a difficult day in that 
the House is seeking to adjourn while also considering several 
resolutions relating to the ongoing conflict Libya. So you may 
have members in and out. But we really thank you for your 
presence.
    And in his absence, I would like to thank Chairman Smith as 
well for elevating this important issue of religious freedom as 
a foreign policy priority for the United States. I was honored 
to join him and Congressman Wolf as a co-sponsor of the 
International Religious Freedom Act of 2011. And I want to 
commend both of those gentlemen for their leadership to ensure 
that this first freedom, the freedom of religious discretion, 
will continue to have a prominent seat at the table in U.S. 
diplomatic engagement.
    Again, thank you for your leadership on the Commission as 
well, Mr. Leo. I believe you have done extraordinary work since 
the establishment in 1998. It is a small but flexible 
organization that I think has played an indispensable role in 
informing our oversight efforts with critical firsthand 
knowledge of human rights abuses throughout the world and 
recommendations for U.S. policymakers.
    After I finish some of these opening comments, that is what 
I will ask you, further recommendations for policymakers.
    This year we have witnessed a staggering movement for self-
determination throughout the world, particularly in the Middle 
East with serious implications for the future of that region. 
Religious freedom is a most fundamental element of self-
determination. The acid test of this movement's success I think 
will be to the extent to which emerging or evolving 
institutions of government respect the human dignity and 
inherent rights of all persons subject to their jurisdiction 
and foster the rule of law in an impartial and just manner.
    Tragically, we have also witnessed the worst manifestations 
of ruthlessness and violent attacks, for instance on indigenous 
Egyptian faith communities. And as you were mentioning earlier, 
the callous murders of Minister Bhatti and Governor Taseer in 
Pakistan who courageously upheld that nation's founding vision 
in seeking to protect vulnerable individuals in persecuted 
faith communities.
    As a side note, I had requested a private meeting just last 
spring with Minister Bhatti and had an extensive conversation 
about the blasphemy laws and his attempt not only to protect 
Christian minority communities, but other faith minority 
communities in that country.
    These and other pervasive incidents of religiously 
motivated violence and persecution, wherever they occur, and 
the environment of impunity that so often accompanies them call 
for a sustained and consistent response from the United States 
through numerous venues, and I would also consider trade 
negotiations one of those venues, in which we engage the 
broader world.
    While there is much work to do we have set a higher bar, 
thanks to your efforts, the Commission's efforts and I think 
made some significant steps forward.
    Again, I look forward to learning more about your work, but 
let us move quickly to that question about potential 
recommendations that the Commission may have to strengthen this 
element of fundamental justice for all people.
    Mr. Leo. Well, thank you very much, Mr. Fortenberry, both 
for your attention on these issues and also your leadership. It 
is so very much needed in today's world and we are very 
grateful for it. And we have enjoyed working with you and your 
staff, and we look forward to that in the future.
    With regard to your question about further recommendations 
for how we can improve conditions for religious freedom, first 
I think we have to bolster attention to the issue here at home. 
There are lots of different ways to do that, but I will mention 
three.
    First, as I mentioned before, the Ambassador-at-Large needs 
to have very direct access to the Secretary of State and to the 
Executive Office of the President, the President in particular, 
to put these issues into play as the State Department apparatus 
and the White House apparatus engages in its various bilateral 
and multilateral negotiations.
    Secondly, while there is some training in religious freedom 
for Foreign Service officers there needs to be more, and it 
needs to be part of the core curriculum. There was a course 
that I think has begun this week, but again more courses are 
needed and it does need to be part of the core curriculum.
    And then finally, it would be very useful I think for 
raising the profile of these issues to have a more systematic 
monitoring mechanism within our Government for monitoring 
religious prisoners and having those kinds of lists. Because 
that brings the issue home for a lot of folks and it is a way 
of really raising the profile.
    In terms of other things we could do, we do have to 
pressure countries abroad as vigorously as we can, and I think 
more vigorously then we are now. Certainly naming countries as 
Countries of Particular Concern is helpful. But as I said 
before, you have got to back that up with real pressure and 
sanctions at times. Certainly you have to put the issue of 
religious freedom higher up on the totem pole in bilateral 
negotiations with countries.
    And then the are some specific things you can sometimes do. 
For example, you could bar severe religious freedom violators 
from coming into the United States, and those kinds of travel 
bans sometimes could be helpful particularly when you are 
dealing with these kinds of abuses in North Africa, sub-Saharan 
Africa and the Middle East.
    But, you know it is important not simply to curse the 
darkness, right? So you have to find ways of helping countries 
to get to where they need to be. So, for example, in the case 
of Nigeria you know the Commission simply has not criticized 
Nigeria for its lack of capacity or lack of will to investigate 
and prosecute the perpetrators of religiously-related violence. 
We have worked with them in trying to find ways where U.S. 
resources can be brought to bear to help them think through the 
issues of investigation and prosecution. So we need to find 
ways of providing these countries with the capacity building or 
technical assistance that they need in order to deal with the 
issue of impunity or to deal effectively with inner-religious 
dialogue. And I think that those are things that we can do, and 
we need to do more of.
    So, in a nutshell those are some of the ways that I think 
we can bring our resources to bear and also put pressure on 
countries abroad and focus the issue more intensely here at 
home.
    Mr. Fortenberry. Thank you.
    In the Middle East, let us turn there for a moment, there 
is in effect a Christian diaspora occurring at the moment. The 
Christian communities and other minority faiths in that region 
have an ancient claim to that homeland, as do other peoples. It 
is my concern in addition to being an injustice if you lose 
these faith communities, which in some ways have provided a 
leavening influence, in some ways an insulating influence 
between other persons who have had traditional conflicts, you 
exacerbate the geo-political concerns in the arena and you 
complete efforts such as peace between Jewish persons and 
Palestinian persons who are Muslims.
    So I think that elevating the idea, and to the President's 
credit he mentioned this in his speech to the Arab world 
recently, and it was somewhat overlooked that religious freedom 
is a hallmark of democratic values. And I thought that that was 
important. When Prime Minister Netanyahu came here shortly 
after the President's speech he alluded to the same things in 
regards to having an environment which respects multiple 
confessions, all of which have claim to an ancient homeland 
there.
    In this regard, I think it is important to continue to talk 
about this hidden, in many ways, diaspora that is going on in 
many countries: Iraq, Syria, to some degree the pressures in 
Egypt might be significant enough to spark that kind of 
movement there, as well as in other lands in the region.
    I think this is very, very important to continue to elevate 
that particular concern because it is so related to geo-
political movements of the moment. If we lose an emphasis on 
that, I think talking democratic values and the new civil 
structures that can lead to more democratic processes is good, 
but it has to be undergirded by some philosophical principles 
that are inculturated and institutionalized, namely respect for 
human rights and dignity and religious expression is one of 
those.
    So as the manifestation of Christians basically being 
forced to leave and other minority faith communities. My own 
district for instance, I have a significant number of people 
who practice an ancient religion called the Yazidi faith which 
is a section Iraq in the north who are begging for more 
security and the ability to simply be left alone, but in a safe 
environment, where they could practice their ancient faith.
    So, I think this is important if we could focus attention 
there as well, particularly given the dynamics of the moment I 
think it undergirds what we all hope as further democratic 
movement in the area.
    Mr. Leo. Well, Iraq needs to be a lesson for us. Because as 
you point out, the Christian communities in Iraq are nearly 
extinct: The Yazidis, the Mandeans, the Chaldo-Assyrians, of 
course the Jews as well. These communities are dwindling fast 
and they have little hope those who have left of returning. And 
that is a sad situation because the long term prosperity; 
health, security and instability of Iraq is going to depend, in 
part, upon democratic pluralism. And those communities were 
very, very important catalysts for peace and stability and 
prosperity. So we should learn from our experience in Iraq and 
when we see sectarian tensions, we should not run from them or 
deny that they exist. We need to find ways to take them on 
straight away. And when we are in the midst of a conflict where 
sectarian tensions are high, we need to find ways of building 
up security for those communities. And that is something that 
our Commission has been working on and speaking with the State 
Department about. In fact, we have several meetings on this 
next week.
    And, of course, that provides a window into Egypt because 
now the Coptic Christians in Egypt are worried for their own 
survival long term, and it is unclear what is going to happen 
there.
    But the decisions we make early on in these countries, the 
institutional and infrastructure-related decisions we make have 
tremendous bearing on what happens later. And with one quick 
example, which is Afghanistan.
    A number of years ago the United States turned a blind eye 
to the fact that the proposed Afghan constitution contained a 
repugnancy clause that basically said anything inconsistent 
with Sharia principles would not be tolerated or enforced under 
their constitutional regime. One has to wonder whether you will 
ever have religious tolerance, religious harmony and religious 
freedom in Afghanistan with a constitutional provision like 
that.
    Now when you are starting from that point it is very, very 
hard to make progress. So we have to be very mindful as we talk 
about democratic reform in these countries and we give all 
sorts of institutions and groups space to grow, that there 
ought to be certain kinds of reforms that are simply off limits 
because of the way in which they degrade human rights, and 
religious freedom particularly.
    Mr. Fortenberry. Well said. Thank you very much.
    Mr. Chairman.
    Mr. Smith. Thank you, Mr. Fortenberry.
    And I would now like to yield to the chairman of the 
Commerce, Justice, and Science Subcommittee of the 
Appropriations Committee, the author of the International 
Religious Freedom Act, Mr. Wolf.
    Mr. Wolf. Thank you.
    Mr. Chairman, I have a meeting in my office. They have been 
there since 10:30, so I will not have any questions. I would 
want to ask permission to submit a statement for the record, if 
I may.
    Mr. Smith. Without objection.
    [The prepared statement of Mr. Wolf follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Wolf. Secondly, thinking as I wrote some notes out as I 
was listening, one I want to thank Chairman Leo and your entire 
membership of the Commission and the staff. You have really 
done a great job. And I really appreciate your faithfulness for 
willingness to speak out. Perhaps this has been as good of an 
operation as I have seen. So I want to publicly thank you.
    I want to thank Mr. Smith and Mr. Payne for having this 
hearing and for being advocates for these issues.
    Thirdly, as I was listening, at the outset I want to say 
this and I want to say it on the record so it is public, it 
will be there forever and ever: I would hate to serve in a 
Congress where there was not a Congressman Chris Smith. I think 
Chairman Smith has done more on these issues: Human rights, 
religious freedom, anti-Semitism, children left behind, all of 
these issues than any other member in the 31 years that I have 
served. He is an advocate. He has followed very careful, very 
successful in the footsteps of two giants, Chairman Hyde and 
Chairman Lantos. And, frankly, I just want to publicly say as I 
watch these things; every time there is something on the floor, 
every time there is something in the record, every time there 
is one name now that always pops up. And I think the people in 
this town and in our country who have a commitment to human 
rights and religious freedom have to understand, Congressman 
Smith. Just listening, as you say, ``I went here, I went there, 
I did this.''
    So, I appreciate the chairman's effort. And as I said, I 
would not want to see a United States Congress where there was 
not a Chris Smith or somebody like Chris Smith.
    And with that, I will just yield and go on to my meeting.
    Mr. Smith. Thank you Chairman Wolf.
    And thank you, again, for your leadership, and we look 
forward to an early markup of your legislation to reauthorize 
the International Religious Freedom Act.
    Before going to our next panel, Mr. Leo, is there anything 
else you would like to add?
    I just would note for the record in remembrance of the 
terrible massacre at Tiananmen Square, I picked today to 
introduce legislation. I mean, we are always trying to find 
ways to hold the government and the perpetrators to account for 
heinous crimes against humanity and genocide and religious 
persecution. Today I will be introducing the China Democracy 
Promotion Act of 2011. And that legislation is designed to 
empower the President with the ability to deny a visa to high 
government officials who are involved with human rights abuse 
in the People's Republic of China, including religious 
persecution.
    In 2004 I authored the Belarus Democracy Act which targeted 
President Lukashenka, the last dictator in Europe, for his 
heinous crimes against his own people. And that legislation, 
which includes denial of visas and encourages lists of people 
who should not be allowed to make their way to the United 
States, and also provides sanctions of other kinds, has had an 
impact. As a matter of fact, at a meeting in Minsk not so long 
ago, 1\1/2\ years ago, 11 of us were meeting with him and he 
was very perturbed about that legislation because it inhibits 
his ability and especially people within his administration, 
the ability to travel to the United States.
    And if we were to say to the Chinese, ``We are not 
kidding.'' And Mr. Payne mentioned a moment ago that Mladic was 
picked up, finally, because of his crimes in Srebrencia and in 
Sarajevo and elsewhere, but particularly that is what the 
prosecutor will prosecute him on: Genocide in Srebrenica and 
crimes against humanity in Sarajevo. There is no statute of 
limitation on crimes against humanity. And, you know we learned 
that from Nuremberg, we learned it from the Tokyo War Crimes 
Tribunal, but especially Nuremberg that we will hunt down 
people who commit these crimes, but minimally they should not 
be allowed a visa to come to the United States. That is about 
the least we could do. So that legislation will be introduced 
today.
    Any further comments?
    Mr. Leo. All I would say, Mr. Chairman and Mr. Payne, is 
that our commissioners and the civil society community draw a 
lot of strength and inspiration from the commitment and 
leadership that is shown up here. So we thank you for what you 
are doing.
    We stand ready in any way we can to continue to put points 
on the board for religious freedom. The game is not over yet 
and we want to keep on putting as much pressure on other 
countries as we can so that we can have the kind of human 
rights protection and freedom of religion that all peoples 
deserve.
    Thank you.
    Mr. Smith. Thank you, Mr. Leo. And thank you for your 
extraordinary leadership. And Ted Van Der Meid, thank you for 
being here, and your leadership as well.
    I would like to now welcome our next panel beginning with 
Mr. Tom Farr, who is visiting associate professor of religion 
and international affairs at Georgetown University's School of 
Foreign Service. He is a senior fellow at Geogetown's Berkley 
Center for Religion, Peace, and World Affairs where he directs 
the Religious Freedom Project and the Program on Religion and 
U.S. Foreign Policy. A former U.S. diplomat of 21 years, Mr. 
Farr was the State Department's first Director of the Office of 
International Religious Freedom.
    He has published numerous articles on religion and U.S. 
national interests and appeared on many media outlets.
    His book, ``World of Faith and Freedom: Why International 
Religious Liberty is Vital to American National Security,'' was 
published by Oxford University Press.
    Mr. Farr, welcome.
    We will then hear from Mr. Joseph Grieboski, who is the 
founder and chairman of the board of directors of the Institute 
on Religion and Public Policy. He currently serves as the 
founder and secretary general of the Interparliamentary 
Conference on Human Rights and Religious Freedom; founder and 
chairman of the International Consortium on Religion, Culture 
and Dialogue; a member of the board of directors of the 
Leadership Council for Human Rights. And a member of the board 
of advisors of the Military Religious Freedom Foundation. Mr. 
Grieboski is a regular columnist for the Huffington Post. He 
has worked with the Executive Office on Immigration Review to 
train U.S. immigration judges and immigration attorneys on 
issues related to religious liberty and asylum.
    Third, we will hear from Mr. Brian Grimm. He is director of 
Cross-National Data and senior researcher in religion and world 
affairs at the Pew Research Center's Forum on Religious and 
Public Life in Washington, DC.
    Mr. Grim is co-author of ``The Price of Freedom Denied: 
Religious Persecution and Conflict in the Twenty-First 
Century,'' and he co-edits the World Religion Database at 
Boston University.
    Dr. Grim has extensive overseas experience from '82 to 
2002. He lived and worked as an educator, researcher, and 
development coordinator in China, the former USSR, Central 
Asia, Europe, Malta, and the Middle East, including being an 
academic director at the UAE Military Academy.
    His findings on international religious demography and 
religious freedom have been covered by all the major news 
outlets and contributed mightily to our understanding as to 
what is going on.
    Mr. Farr?

   STATEMENT OF MR. THOMAS FARR, DIRECTOR, RELIGIOUS FREEDOM 
PROJECT, BERKLEY CENTER FOR RELIGION, PEACE, AND WORLD AFFAIRS, 
                     GEORGETOWN UNIVERSITY

    Mr. Farr. Thank you, Chairman Smith.
    Mr. Chairman, Ranking Member Payne thank you for holding 
these important hearings and for your leadership on the issue 
of religious freedom. And speaking personally for a moment, let 
me associate myself with Mr. Wolf's fine comments about you, 
Mr. Chairman, for your decades of dedication to this important 
issue.
    I am here to testify on behalf of H.R. 1856. I ask that the 
full text of my testimony be entered into the record.
    Mr. Smith. Without objection.
    Mr. Farr. I also have here a letter in support of the bill 
signed thus far by 35 organizations and leaders from across the 
political, academic and religious spectrum. And I ask that it, 
too, be entered into the record.
    Mr. Smith. That, too, will be.
    Mr. Farr. There are two broad reasons that the United 
States promotes international religious freedom. First, 
protecting this fundamental right goes to the core of who we 
are as a people. Second, the advancement of religious liberty 
brings American values into line with American interests, 
including its national security. It is in our fundamental 
interests for Egypt, Iraq, Afghanistan, Pakistan and others to 
succeed in establishing stable lasting democracies. But history 
and contemporary empirical studies make it clear that such 
highly religious societies cannot succeed at democracy and 
reduce religious-related terrorism without religious freedom in 
full. And very few of these countries have anything approaching 
religious freedom in full.
    Unfortunately, no administration, including the current 
one, has successfully employed the International Religious 
Freedom Act, IRFA, to advance our values or national security. 
Over the dozen years since IRFA's passage our policy cannot be 
said in any substantial way to have reduced religious 
persecution, advanced religious freedom or increase American 
national security.
    I believe that H.R. 1856 can help remedy this failure of 
American diplomacy.
    Now there are many good features of this bill which I would 
like to have an opportunity to speak about later, but now I 
want to focus on three, all of them having to do with the 
Department of State which is what I know most about. Even 
though trained as an American diplomat, Mr. Chairman, I can 
speak at some length on things I do not know much about. 
[Laughter]
    First, the bill requires the IRF Ambassador-at-Large to 
integrate religious freedom into U.S. democracy and civil 
society programs, and into the counterterrorism policies of the 
United States. This is critically important.
    The reality is that stable democracies will not emerge in 
the greater Middle East, or anywhere else, and religious 
terrorism will continue to be incubated and exported including 
to the American homeland unless those societies adopt religious 
freedom.
    I am pleased to see that H.R. 1856 allocates a percentage 
of the Human Rights and Democracy Fund to the Ambassador-at-
Large for Religious Freedom for such programs. But I believe, 
Mr. Chairman, that the percentage that is currently in the 
bill, 5 percent, is too low. I would recommend that that be 
increased to something like one-third of the money allocated to 
the Human Rights and Democracy Fund.
    Second, H.R. 1856 requires the State Department to place 
the Office of International Religious Freedom and the 
Ambassador-at-Large under the Secretary of State and stipulates 
that the Ambassador-at-Large will report directly to the 
Secretary. This placement represents the status that most other 
Ambassadors at Large have historically enjoyed at the 
Department of State, including the current Ambassador, for 
example, for Global Women's Issues. If the advancement of 
women's rights is important enough for such placement, which I 
believe it is, why not religious freedom? Placement in the 
Secretary's Office will empower the Ambassador and the 
religious freedom staff to carry out the duties prescribed by 
IRFA including as amended, especially those of integrating U.S. 
policy into our democracy and civil society, and 
counterterrorism programs.
    Its current placement within the Bureau of Democracy, Human 
Rights and Labor not only subordinates the Ambassador to a 
lower ranking official, but communicates to foreign 
governments, religious communities and U.S. diplomats that 
religious freedom is not a priority for the American 
Government.
    Third, H.R. 1856 requires the Department to train its 
diplomats in the scope and value of religious freedom. Now 
Congress thought it was levying such a requirement in the 1998 
IRFA, which in fact mandates training. But it left the details 
to the Department and the results have been disappointing. For 
the past 12 years training has been ad hoc, inconsistent and 
ineffective. To their credit, the Foreign Service Institute has 
initiated a 3-day course on religion and foreign policy. I 
spoke at that course 2 days ago and it is an important 
beginning for which FSI and the Secretary should be applauded, 
but it is only a beginning. These courses will not work if they 
are occasional and voluntary. They must be systematically 
integrated into diplomatic training. H.R. 1856 accomplishes 
that objective by requiring mandatory training for all 
diplomats when they enter the Foreign Service and when they 
receiving area studies training in route to their next foreign 
assignment.
    Critically, training on religious freedom will also be 
required for all ambassadors and deputy chiefs of mission 
before they take their duties in a foreign post.
    Mr. Chairman, it is difficult to overestimate, in my view, 
the importance of this part of the amendment to the IRFA. The 
Department may resist this and other aspects of H.R. 1856, 
perhaps citing in this case the training which has just taken 
place. But again, that training was voluntary. Moreover, it did 
not focus on U.S. international religious freedom policy so 
much as it did the idea of religious engagement. The two are 
related, but they are not the same thing.
    If our policy is to succeed, all of our diplomats need to 
be trained.
    So, in conclusion, Mr. Chairman, H.R. 1856 is a much needed 
corrective to the way that the 1998 International Religious 
Freedom Act has been implemented. And I urge that it be passed.
    Thank you.
    [The prepared statement of Mr. Farr follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Farr, thank you very much.
    Mr. Grieboski?

STATEMENT OF MR. JOSEPH GRIEBOSKI, FOUNDER AND CHAIRMAN OF THE 
         BOARD, INSTITUTE ON RELIGION AND PUBLIC POLICY

    Mr. Grieboski. Thank you very much, Mr. Chairman and 
Ranking Member Payne, for the opportunity to be here today and 
to talk to the committee about such a fundamental and urgent 
issue.
    I am grateful that you have taken the leadership and 
initiative to hold this hearing on a topic that is often either 
ignored or sidelined as what many policymakers call a ``soft 
issue'' and not given appropriate attention by policymakers 
despite the importance it plays in so many areas.
    As you know, Mr. Chairman, I have quite a bit to say about 
this topic, so I request that the full statement be introduced 
into the record.
    Mr. Smith. Without objection so ordered.
    Mr. Grieboski. Thank you, sir.
    While this hearing focuses on ways to prioritize religious 
liberty and U.S. foreign policy, the issue of religious liberty 
is not a new one. The first act of violence recorded in Judaeo-
Christian history is one of religious persecution. Cain's 
killing of Abel demonstrates that even at the very beginning of 
human history, Man found ways in which to demonize, and 
ultimately persecute and kill, one another based on religious 
practice.
    Since the days of Cain and Abel, however, conditions have 
not improved. In the 20th century alone, more people died for 
their faith than in all previous 19 centuries combined. Nearly 
1 billion people face significant discrimination and 
persecution because of their religious beliefs and identity on 
a daily basis. In related terms, on any given day, more than 
three times the population of the United States is potentially 
threatened or even killed because of the way they choose to 
pray, or not to pray. According to the already referenced Pew 
Forum study, ``nearly 70 percent of the world's 6.8 billion 
people live in countries with high restrictions on religion, 
the brunt of which often falls on religious minorities.''
    While the International Religious Freedom Act was meant to 
help alleviate the potential and actual suffering of millions 
of people around the globe based on their religious and belief 
choices, the situation of religious freedom has, in fact, 
deteriorated since Congress' unanimous passage of the bill in 
1998.
    Sadly, the great Spirit of IRFA never became incorporated 
into the letter of policy. While each President since the 
passage of IRFA has acknowledged the importance of religious 
freedom, none has been a champion of the cause. Despite the 
importance of religious liberty issues to American security, 
particularly in a post-9/11 world, to economics and finance, to 
our general human rights policies and other vital interests, 
Presidents have instead fulfilled only the most basic 
requirements of IRFA.
    Thankfully, the lack of Presidential leadership on this 
issue was matched equally with ardent and dedicated and 
unwavering passion for the issue from Members of Congress. You, 
Mr. Chairman, Mr. Wolf, Mr. Franks, Ms. Ros-Lehtinen, Mr. 
Cleaver, Mr. Sherman, Mr. Payne, and a few others, have taken 
immeasurable responsibility in guaranteeing this most basic and 
fundamental right is protected globally. However, if religious 
liberty is ever to be a significant priority in U.S. foreign 
policy, it is imperative that both the executive and 
legislative branches uphold both the spirit and the letter of 
the International Religious Freedom Act.
    Unfortunately, the executive branch has never grasped the 
significance of the issue and especially the role it can play 
in the world following 9/11.
    Instead of being fully incorporated into overall U.S. 
policy, religious freedom was seen as yet another issue item 
heaved upon the State Department by Congress. Thankfully, the 
Clinton administration had the foresight of naming Bob Seiple 
as the first Ambassador-at-Large, and the State Department, of 
appointing my colleague at this table, Tom Farr, as the first 
Office Director. Their early leadership of the office is, in 
large part, why the office survives and could potentially 
thrive, despite overwhelming odds.
    Unfortunately, during the early days of implementation, the 
spirit of the law was lost to the letter of politics and 
bureaucracy. Religious liberty became the responsibility of the 
State Department alone rather than being fully integrated into 
overall U.S. foreign policy, and the U.S. Commission on 
International Religious Freedom simply became the watchdog of 
the State Department.
    Other departments and agencies with direct and indirect 
foreign policy capacity were never fully engaged on the issue. 
Commerce, Justice, USAID, the Office of the U.S. Trade 
Representative, Defense, Homeland Security, Central 
Intelligence Agency, and the other agencies and departments 
involved in the overall making of U.S. foreign policy were not 
a part of the discussion. Similar to the faith-based 
initiatives appointment of liaison offices in appropriate 
agencies and departments, personnel could have been named to be 
religious liberty liaisons to assist in that integration.
    Again, the lack of presidential leadership on the issue 
perpetuated the perception that religious liberty was not 
significantly important. Title III Section 301 of the 
International Religious Freedom Act offers a sense of Congress 
that a National Security Council staff person be appointed at 
the level of the Director within the Executive Office of the 
President as a special advisor to the President on 
international religious freedom. Neither the Clinton 
administration, the Bush administration, nor the Obama 
administration fully implemented the suggestion of Congress 
that a special advisor be appointed. Instead, they are almost 
always double-hatted with other NSC staff handling other 
issues. Such a point person on the NSC staff responsible for 
global review and interaction on religious liberty would serve 
not only to advance both the issue of religious liberty itself, 
but also provide the necessary support when such matters impact 
other security concerns and vital interests.
    As the principal advisor to the President and the Secretary 
of State, and as the coordinator for overall U.S. international 
religious freedom policy, the Ambassador-at-Large for 
International Religious Freedom was never permitted access to 
even one Cabinet meeting in order to brief Cabinet officials on 
the efforts of the office and ways in which each appropriate 
Cabinet department can work with the Ambassador's office to 
enhance the issue. As a matter of fact, it is my understanding 
that religious liberty has never been on the agenda of a 
Cabinet meeting since the passage of IRFA. It seems to me that 
such a discussion on such a topic would be vital to entrench 
religious liberty into overall policy, as envisioned by the 
authors of IRFA.
    Mr. Chairman, religious liberty is far too significant and 
impactful an issue to be handled halfheartedly.
    As I mentioned in my introduction, prioritizing religious 
liberty requires a commitment of both the executive and 
legislative branches to fulfill the spirit and letter of the 
law.
    Mr. Wolf's recently introduced H.R. 1856 provides us with a 
historic opportunity to review the successes and, more 
importantly, the failures the past 13 years and to improve how 
religious liberty is prioritized and exercised in overall U.S. 
policy.
    Mr. Chairman, I have a number of recommendations that are 
included in my testimony, but I would just like to point out a 
few with the time that is remaining.
    First, the U.S. policy in dealing with human rights in 
general, and religious liberty in particular, is one of a stick 
approach, not a carrot and stick approach. Currently there is 
no incentive for non-CPC states with difficult religious 
liberty situations, or religious discrimination, to improve 
their conditions. In order to advance religious liberty in 
states whose conditions do not meet the CPC level but, 
nonetheless, are problematic, the IRF report can serve as the 
functional mechanism.
    Taking a lesson from the Trafficking in Persons report, the 
IRF report can establish categories based on ones already 
outlined in the Executive Summary to categorize all countries 
in the world. Because even if persecution does not exist and 
discrimination does, discrimination cannot go unreported as 
incidents of discrimination can directly lead to incidents of 
persecution.
    Mr. Wolf's new bill establishes a significant amount of new 
responsibilities for the IRF office, all of which are necessary 
for the advancement of the issue. Unfortunately, the bill does 
not provide for the corresponding resources to follow through 
on those responsibilities. While the bill does provide for 15 
full-time employees, in bureaucratic structures like the State 
Department a floor of 15 becomes a ceiling of 15 staff. As a 
result, I recommend that the bill establish a line item in the 
budget for the Office of International Religious Freedom which 
would allow the office to manage its own personnel and program 
funds, allowing it to appropriately and functionally to promote 
religious liberty globally, without the hassle of internal 
budget concerns and without the necessary approval of the front 
office of DRL.
    Attached to that, and my last recommendation for my 
remarks, is to follow on the comments of my colleague, Tom 
Farr. The original spirit and letter of the International 
Religious Freedom Act was quite clear that the Office of 
International Religious Freedom is an S office. As the 
principal advisor to the President and the Secretary, the 
Ambassador-at-Large should not have to seek the permission of 
the Assistant Secretary for Human Rights. It is a priority of 
U.S. foreign policy that it was not a regional ambassador, it 
was not a country ambassador, but an ambassador-at-large that 
was given the responsibility of promoting this issue. As a 
result, the Ambassador-at-Large and her office should be given 
both the access and the resources to be able to fulfill that 
duty and that mission on a daily basis.
    Mr. Chairman, thank you for the time.
    [The prepared statement of Mr. Grieboski follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    



00                              ----------                              


    Mr. Smith. Thank you very much for your testimony, your 
leadership and your very concrete recommendations.
    Mr. Grim?

STATEMENT OF MR. BRIAN GRIM, SENIOR RESEARCHER AND DIRECTOR OF 
   CROSS-NATIONAL DATA, FORUM ON RELIGION & PUBLIC LIFE, PEW 
                        RESEARCH CENTER

    Mr. Grim. Chairman Smith and Ranking Member Payne, thank 
you very much for the opportunity to speak this morning.
    I have been asked to specifically address the situation in 
Africa from a global perspective. And I will summarize findings 
from our ongoing study at the Pew Research Center's Forum on 
Religion and Public Life on global restrictions on religion, 
which is generously funded by the Pew Charitable Trusts and the 
John Templeton Foundation.
    And I do request that my comments be made a part of the 
public record.
    Mr. Smith. Without objection so ordered.
    Mr. Grim. Thank you.
    The study itself covers 198 countries and territories, 
representing more than 99 percent of the world's population, 
for the 3 year period of July 2006 to June 2009. And the study 
continues to find that approximately 70 percent of the world's 
population lives in countries with high or very high 
restrictions on religion.
    Across the continent of Africa, however, the situation 
varies. Restrictions are high or very high in all seven 
countries in North Africa where a series of popular uprising 
are still playing out. In contrast, only 9 of the 47 countries 
in sub-Saharan Africa, or 19 percent, have high or very high 
restrictions. However, I should note that because many of these 
countries with high restrictions in sub-Saharan Africa are very 
populous, nearly half of sub-Saharan Africa's population, about 
48 percent, lives in countries with high or very high 
restrictions. An additional 22 percent of the population in 
sub-Saharan Africa, 12 countries, live with moderate 
restrictions and some 30 percent live in 26 countries with low 
restrictions. Some of these restrictions come from the actions 
and policies of governments while others come from hostile 
actions of people or groups in society.
    The 10 countries on the Africa continent with the highest 
levels of government restrictions include, as I have mentioned, 
all seven North African countries; Egypt, Algeria, Libya, 
Sudan--in our reckoning of North Africa--Tunisia, Morocco and 
Western Sahara, plus Eritrea, Mauritania and Somalia in sub-
Saharan Africa.
    Government restrictions come in various forms, including 
detentions or imprisonments for religious reason which occurred 
in approximately two in five countries globally between mid-
2006 and mid-2009. Such detentions, however, were routine in 
the East African country of Eritrea, where for instance 
Jehovah's Witnesses are frequently imprisoned or detained for 
refusing to do compulsory military service, which is against 
their religious convictions. Eritrea has the highest government 
restrictions on the African continent aside from Egypt. In 
fact, prior to the recent uprising in Egypt, government 
restrictions were already high. By mid-2009 Egypt joined the 5 
percent of countries with the most intense social hostilities 
involving religion. Again, these were all developments before 
the current uprisings.
    Indeed, restrictions on religion also arise from the 
hostile actions of people and nongovernmental groups in 
society. In Nigeria, for instance, hostilities between Muslims 
and Christians were the rise well before the April 2011 
Presidential election that saw Goodluck Jonathan, a Christian 
from the South, defeat Muhammadu Buhari, a Muslim from the 
North. A series of fatal clashes left hundreds dead and many 
thousands displaced from their homes. While conflicts in 
Nigeria are often triggered by socio-economic or political 
tensions, in many situations the enemy is identified by his or 
her religion. Indeed, Nigeria is among the 10 countries in the 
world the highest levels of social hostilities involving 
religion. And being the most populous country in Africa, this 
is a concerning situation.
    On the continent of Africa, social hostilities in Nigeria 
are second only to those in Somalia. In addition to these two 
countries, social hostilities are also high in Egypt, Sudan, 
Algeria, Comoros, Kenya, Ethiopia, the Democratic Republic of 
the Congo and Ghana. Part of the social hostilities include a 
slight uptick in recent years of religion-related terrorism 
throughout Africa with violence occurring in 11 countries and 
recruiting activities in an additional nine countries, meaning 
that about one in three countries in Africa has some problem 
with religion-related terrorism.
    In many cases, religious minorities in a country bear the 
brunt of these abuses associated with government restrictions 
or social hostilities involving religion. But adherents of the 
world's two largest religious groups, Christians and Muslims, 
who together comprise more than half of the global population, 
were harassed in the largest number of countries around the 
world. It is important to note, however, that these data that I 
am referring to do not measure the severity of harassment or 
persecution, so it is not possible to say whether one religious 
group is harassed or persecuted to a greater or lesser extent 
than other religious groups or ethnic minorities. Nevertheless, 
the data are revealing. Over the 3-year period study, incidents 
of either government or social harassment were reported against 
Christians in a total of 130 countries or 66 percent of 
countries in the world, and against Muslims in a 117 countries, 
59 percent of the world's countries. Buddhists and Hindus, who 
together account for roughly one-fifth of the world's 
population, faced hostility in fewer places; harassment was 
reported against Buddhists in 16 countries and Hindus in 27 
countries.
    In proportion to their numbers, some smaller religious 
groups faced especially widespread hostility. Although Jews, 
which you have mentioned earlier in the hearing, comprise less 
than 1 percent of the world's population, government or social 
harassment of Jews was reported in 75 countries, or 38 percent 
of countries of the world. Members of other world religions, 
including ancient faiths such as Zoroastrianism, new faith 
groups such as Baha'is and Rastafarians, and localized groups 
that practice tribal or folk religions faced harassment in 
approximately 84 countries, or 42 percent of the countries of 
the world, far higher than their share of the global 
population, which is estimated to be less than 15 percent.
    Between mid-2006 and mid-2009 on the continent of Africa 
one religion or another faced harassment in a majority of 
countries, 47 of the 54, or 87 percent. Government harassment 
occurred in 41 countries, slightly more than social harassment, 
which occurred in 37 countries. As with the global situation, 
Christians and Muslims in Africa were harassed in more 
countries than other religious groups, harassed in 39 and 34 
countries respectively across the 54 countries in all of the 
continent of Africa. The next most commonly harassed group 
included members of localized groups that practice tribal or 
folk religions, such as African traditional religions. Also, 
throughout sub-Saharan Africa there were numerous reports of 
people being abused by members of society when often wrong 
accused of practicing black magic or witchcraft. By comparison, 
in Africa particularly, Jews were harassed in eight countries, 
Hindus in two and Buddhists in one.
    While my testimony has focused on countries and situations 
in Africa where restrictions on religion and abuses of 
religious groups are high, I would like to wrap up on a more 
hopeful note. In the statistics I stated before, more than half 
of the countries in sub-Saharan Africa have low overall 
restrictions on religion. In Europe, by comparison, 42 percent 
of countries have low restrictions. And in the Asian Pacific 
region, just a third of countries fall under this category. 
Only the Americas have a larger proportion of countries with 
low overall restrictions on religion.
    And finally, though I have not addressed the issue that the 
others on this panel have addressed directly, the careful 
documentation of human rights abuses in the State Department's 
annual International Religious Freedom report and the reports 
by the U.S. Commission on International Religious Freedom are 
two of the 16 international sources used by the Pew Forum 
researchers, six of whom are here with me today, to carry out 
our ongoing study of a changing world. Our next global report 
on changes and restrictions will come out this summer, so stay 
tuned.
    Thank you.
    [The prepared statement of Mr. Grim follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much for your testimony.
    Just let me ask a few questions, beginning with you, Mr. 
Farr, and anyone else who would like to speak to this. I am 
encouraged that training of our Foreign Service officers seems 
to be, at least, a beginning as you put it. I am wondering if 
you have any recommendations as to ambassadors. If the Foreign 
Service officers' career goals is to become ambassadors, 
hopefully, they will have gotten that training and will be 
sensitive to religious freedom issues. But we all know a very 
significant portion of our ambassadorial ranks are filled by 
donors to whoever the President might be in that particular 
year, and who may have no interest whatsoever in these issues.
    And I would note parenthetically, right before the 
Olympics, Mr. Wolf and I traveled to Beijing. We had a list of 
731 political prisoners, many of whom were religious prisoners. 
We met with house church pastors, all of whom were detained and 
were precluded from meeting with us, except for one. He was 
harassed after the fact. They wanted to meet with us; so we 
knew it would put them at risk, but they actually insisted. 
They thought that it was part of what will lead to change. I 
mean they are very heroic men and women. But our Ambassador, 
when we met with them, was more interested in what event he 
might attend, be it the basketball or track and field, and it 
was very disconcerting. It was, like, well, we know that there 
is an enhanced persecution occurring. Dissidents cannot meet 
with the press. I mean, you know the Olympic Games did not open 
up China. It led to a further restriction or constriction of 
rights there, including on the Internet.
    And I am wondering what your feeling is with regard to 
ambassadors. How do we reach them so that they, too, are on the 
same page as, hopefully, a very earnest human rights officer in 
that Embassy?
    Mr. Farr. Well, thank you for that question, Mr. Smith. My 
mind goes back, as I listen to you talk, to a political 
appointee who was going out to Beijing who was asked in the 
late 1990s about what he was going to do about house churches. 
And he looked blankly at the questioner and said, ``Can you 
tell me what a house church is?'' So this is not an unusual 
problem.
    Unfortunately, the importance of religious freedom does not 
appear to be intuitively obvious to everyone, which is why we 
need training.
    When I was in the Bureau of Intelligence and Research in 
the State Department we would conduct the training for new 
ambassadors and political appointees, area studies for them to 
bring them to date. In many cases they did not know very much 
about the countries where they were going to be ambassadors. So 
this would not be difficult, but it needs to be systematic, not 
ad hoc. It is not a matter of the day before the ambassador-
designate comes that you find somebody hurriedly to come in and 
speak on religious freedom. It needs to be integrated into the 
wallpaper, if you will, of our curricula at the Foreign Service 
Institute, and among others who brief our ambassadors.
    There is one other point I would make. Every ambassador 
that goes to post carries with him or her a set of instructions 
from the President of the United States. They tend to be very 
general, but very important, i.e., ``This is what you are going 
to do while you are there.'' This issue should be in those 
instructions. To my knowledge, it has never been for any 
ambassador. I could be wrong about that. But I think it needs 
to be there in every set of instructions except for that 
country in the world where there are no religious groups or no 
religious persecution, which is to say almost no country in the 
world. We need this to be part of our training for all 
diplomats, but especially for ambassadors. So thank you for 
that question.
    Mr. Smith. Let me ask you--again, remembering that today we 
remember, these couple of days, the Tiananmen Square massacre--
yesterday at one of our hearings at the full committee I 
reminded my colleagues that Hu Jintao began his meteoric rise 
to where he is today as head of China, as the Chinese 
representative in Tibet. And before Tiananmen Square, 4 months 
or so before it, he was brutally crushing the Tibetan 
Buddhists, beating nuns and monks, deploying, closing out the 
press and then the tortures that followed, and continue until 
this day, that are hideous and mind-numbing. And yet when 
President Obama had Hu Jintao at the White House they had a 
press conference. The Associated Press asked a very good 
question about human rights, and President Obama said they have 
a different culture and a different political system. And he 
went on to say, as The Washington Post said in a scathing 
editorial entitled, ``President Obama Defends Hu,'' H-U, of 
course ``Hu Jintao on rights'' that they have a different 
culture and pointed that out--and emphasized--it is a different 
culture, yes, but a culture that has people all over the 
country in the laogai and the gulag systems because they want 
freedom. I mean, there is no ethnicity or ethnic group that has 
a monopoly on freedom and democracy. The Chinese want it just 
as much as the Americans and everyone else.
    So I thought that was a very, very damaging statement made 
by the President. And ``different political system.'' It is a 
dictatorship; the people with the guns and secret police have 
the final say. I think huge damage was done to religious 
freedom or human rights, but religious freedom in particular.
    Wei Jingsheng once told me--and I met him in 1994 before he 
went back into prison in Beijing--and he said, ``You Americans 
do not understand when you coddle dictatorships and you say 
words that Clinton had used and then abandoned once he became 
President, when you kowtow to the Beijing regime, they beat us 
more, they mistreat us more, they torture us more. And when you 
are tough, transparent, predictable they beat us less and human 
rights violations, at least to some extent, are ameliorated.''
    And we continue to play, unfortunately, this other card of 
accommodation and it gets us nowhere and it hurts the Chinese 
people and particularly the religious believers.
    So my question is, I mean do not know of any other country 
in the world in scope and magnitude that persecutes believers--
Falun Gong, Uyghurs, Tibetan Buddhists, underground 
Christians--as egregiously and as systematically as China. What 
would be, perhaps from all of you, your recommendations to the 
President and to the White House in terms of reclaiming what 
should be an American core position of saying, ``This matters a 
great deal to us and we are not going to look askance?''
    Mr. Farr. Well, Mr. Chairman, I agree that it is terribly 
shortsighted of the President--and frankly the Secretary of 
State who said something similar the first time she went to 
Beijing, i.e., that we have to deal with the Chinese concerning 
the important things. Maybe we will talk to them about human 
rights and religious freedom privately. That communicates 
something to the Chinese leaders.
    China is a peculiar country. You know, every country has to 
be addressed differently, including in the Islamic world. 
China's huge plurality of religious groups are exploding in 
number throughout China. And I think our strategy there has to 
be far more broad based and comprehensive than it has been. But 
it has to begin with what the President and the Secretary of 
State say publicly as well as privately. And this has been a 
problem for as long as there has been an IRFA, at least as long 
as I have been involved in this.
    In 1999 inside the State Department when we argued about 
the first CPC list, and China was the real outlier at the time, 
Bob Seiple was the Ambassador-at-Large. I have written about 
this, so this is not something that is not in the public 
record. There was a huge fight over China. And the argument by 
the China Desk was that, ``sure in Tibet,'' for example which 
you mentioned, ``there is persecution but it is not religious 
persecution. It is political persecution because they are 
separatists. They want to separate from China.''
    This is the kind of thinking that wants to set religion 
aside. Of course, there is a little bit of truth in the 
political aspects of this, but to suggest that these people are 
not being persecuted because of their religious beliefs, their 
belief in reincarnation, their reverence for the Dalai Lama is 
absurd. It is absurd on its face.
    So I believe the answer to your question is first at the 
top, our leaders have got to speak out against this and show 
that even though we owe China a great deal of money, that we 
are not going to pull our punches about this issue which has 
been part of the American psyche since the founding.
    But secondly I would just add something--I believe, I spoke 
briefly about programs that I want and I hope the Ambassador-
at-Large will begin to implement. The Chinese are interested in 
this issue of religion. The Chinese Academy of Social Sciences 
has more people studying religion than, I am convinced, all of 
the American universities on the East Coast of the United 
States. They are genuinely interested in a problem that their 
country has, and so they are studying it. That, along with the 
rule of law, along with the growth of the economy provides 
several areas where we can use programs to convince the Chinese 
that it is in their interests to stop persecuting the Tibetan 
Buddhists, the Evangelical Protestants, the Catholics, the 
Muslims. We do not approach this systematically. And that is 
why in my view we need an Ambassador-at-Large with the status 
and the resources for every country in the world where this is 
important. And there is none more important than China to 
develop a strategy for advancing religious freedom.
    Mr. Smith. Yes, Mr. Grieboski.
    Mr. Grieboski. Mr. Smith, I have to say when you bring up 
China, I remember longingly the days when you used to chair 
hearings under MFN to bring to the attention of not just your 
colleagues, but the United States Government and the American 
people the systematic abuse across the board on human rights 
that exist in China.
    This touches back on one of, I think, the fundamental 
failures of the implementation of IRFA in the first place. It 
is fundamentally important that we understand how the Chinese 
Government sees religion. The Chinese Government sees itself as 
the final arbitrator of all things in the lives of its 
citizens. If a Chinese believer believes in something greater 
then the government, they are automatically a political 
security threat. But we are not having that kind of discussion 
with the Chinese Government. We are not having discussions on 
how freedom of religion in fact improves the lives of their 
citizens and increases their happiness.
    But what is also failing in how we have implemented IRFA is 
that the Office of the U.S. Trade Representative has never been 
engaged when we talk about our trade relations with China to 
include this within the discussions. That there has not been 
that dialogue. There has not been that participation.
    Another failing has been as much on the civil society side 
as it has been on the administration side is that there has not 
been enough engagement with the business community. If American 
corporations begin to understand both American law and 
religious freedom issues, but also the responsibility and the 
access and ability they have in China to advance human rights 
issues and to advance religious liberty issues, we would begin 
to see at least a small step forward. These are the areas we 
need to be talking to the Chinese about it, and it does not 
need to be within the larger context of human rights. It needs 
to be in the very practical, very basic and substance ways of 
what the Chinese want and what the Chinese understand.
    And to build on something that Dr. Farr had said, it is 
important for those programs--Georgetown University has a 
relationship with the State Administration for Religious 
Affairs. Our ability, through the State Department's program 
funding, to work with Georgetown and with SARA to be able to 
bring about understandings in communications is a very large 
step forward, and we really need to be able to push that 
forward. But that requires the resources for the International 
Religious Freedom office to be able to do what needs to be done 
on those most important countries.
    Mr. Grim. Yes. Thank you, Mr. Chairman.
    When I was working on the book that I have co-written with 
Roger Finke at Penn State called ``The Price of Freedom Denied: 
Religious Persecution and Conflict in the Twenty-First 
Century,'' we were able to have some meetings with Chinese, 
both in the State Administration for Religious Affairs and 
other public security officials. And when we discussed that 
China has very high restrictions on religion, they said, ``Of 
course. That it is logical. It is a dangerous thing. It can 
cause problems and we should restrict it.'' And so they said, 
``Well, we do not disagree with you, but you know we are 
interested, what is the right level of restrictions on 
religion?'' A very pragmatic question.
    And so I think the Chinese, as they approach this question, 
do not have a philosophical stance that you might find in some 
other countries of the world that would bar them from loosening 
restrictions. They should want to know if this good for us, 
will it be dangerous.
    And I think a second thing that the Chinese now are 
thinking about that they did not when I first went to China in 
1982, many years ago, is what is going on in the rest of the 
world and how it might affect them. And as has been discussed 
by several people today, countries where there is a lack of 
religious restrictions have higher hostilities, more violence, 
and are more unstable. The Chinese are now needing to depend on 
the stability of other countries for their own resources and 
their own interests.
    So I think some of these pragmatic questions would be 
interesting for the Chinese to discuss. Academic researchers 
could look into these questions without having to take a stance 
and say we are trying to defend religious freedom, we are just 
trying to study it and see if it is in the interest of our 
country to have more or less and other countries to have more 
or less.
    Thank you.
    Mr. Smith. With regards to the act itself, if I could, 
obviously, this is the time to make the improvements, this is 
the window of opportunity.
    Mr. Grieboski, you talked about double-hatted both 
personnel and penalties, and I think that your point was very 
well taken and the fact that the National Security Council does 
not have the kind of representation that it ought to have.
    And I think you raised a point that really has not been 
raised the way it should have been until you just did it, and 
that is that the CPC status is an all or nothing proposition.
    I actually, as you know, sponsored the Trafficking Victims 
Protection Act. And one of the lessons we did learn was to have 
tiers. And I am wondering if your thought is that we need to 
have a tier system, which would mean more personnel, I would 
think, or at least a greater emphasis within data calls and 
everything else going out to our Embassies?
    And, Mr. Farr, if you might want to speak to that as well. 
Should we have like a Tier I, Tier II and Tier III and maybe 
even a Watch List?
    I do recall, and you might want to speak to this as well--I 
will throw out a few questions--when John Hanford was our 
Ambassador-at-Large, you know, he worked very hard on Vietnam 
and Saudi Arabia. He often talked about deliverables, 
particularly with regard to the textbooks and the like in Saudi 
Arabia. And on Vietnam, much of his work coincided with the 
bilateral agreement and WTO ascension for Hanoi. And 
unfortunately, the day they got it the snap back to severe 
persecution of religion was not unanticipated, but it was 
brutal, and some people were taken by surprise by it; some were 
not.
    So, you know they are not a CPC country now, but they ought 
to be. Vietnam, I am talking about. Your thought on that?
    And whether or not, when we were working with other issues 
like in this case the Bush administration wanted to get the 
bilateral trade agreement agreed to between ourselves and 
Vietnam, you know, religious freedom became something of an 
incentive, but it turned, out in my opinion, to be a false one 
that actually brought a lot of the house church leaders out 
into the open, where now they have been rounded up and put into 
prisons and harassed. And so it was even worse. They thought it 
was a thawing, when it was just a ruse. So your thoughts on 
that.
    Mr. Grieboski. Thank you, Mr. Chairman, for the question.
    As to the tiers, I think it is fundamentally important that 
the report create a tier system. Not just because of levels of 
persecution and distinctions in persecution but because, again 
as I said in my testimony, there is no incentive for non-CPC 
countries to improve. With the way in which the structure 
currently exists, it is only those countries which are the most 
egregious, which reach levels that could potentially lead to 
sanctions. And even within that sanction regime there are 
levels of sanctions depending on the CPC violations.
    The tier system allows us to look at every country in the 
world which comes back to, actually, the training issue which 
means that if our Foreign Service officers who are doing human 
rights work in France, in Russia, in Belgium, in Venezuela are 
now going to be responsible for having to coordinate the 
religious liberty activity and then report on it on levels, on 
standards that have to be met, that distinguish one level from 
another; it, one, increases the capacity for the State 
Department to do religious liberty on a much more effective and 
priority basis, but it also means that the countries that get 
away with discrimination but know that there will be no 
American response can no longer act that way. So when we see 
anti-religion laws in places like France, when we see an anti-
minaret bill in Switzerland, now the French and the Swiss will 
have to say, ``Will this impact our global positioning and how 
we are seen?''
    Your point on Vietnam is very well taken and very 
important. Again, religious liberty is one of the unused tools 
in these negotiations. We could very easily have included in 
the negotiations with Vietnam as a part of the negotiations 
certain levels of religious liberty that must be met in order 
for the trade agreement to be in place. I am a firm believer 
that there is nothing wrong with our tying our aid policy to 
human rights standards. And I think the only way that we will 
see real and significant improvement in human rights in general 
and religious liberty in particular is if we have standards of 
religious liberty and human rights tied to our foreign aid. But 
that does not mean that we cannot have those conversations with 
those countries with whom we are establishing free trade 
agreements.
    And as we learned from the transition from MFN to PNTR that 
movement significantly harmed the capacity of this body, but 
also the U.S. Government to be able to advance these 
fundamental issues.
    Mr. Farr. I would support the idea of tiers, Mr. Chairman, 
substantially for the reasons that Joe Grieboski has 
enumerated. And I would also associate myself with his view 
that we need to bring in all the elements of the United States 
Government, particularly those dealing with economics and 
trade. Indeed, I have long argued that we need a subspecialty 
within the Foreign Service that would include economics 
officers who would have a subspecialty in religious freedom. 
Such specialty is not offered for anybody, it is offered in 
other areas such as arms control and so forth, but not on 
religion and religious freedom.
    I think, however, that there is a fundamental problem with 
what I think of as a CPC-dominated quiver in our tool kit which 
somebody mentioned today. I think the State Department is 
developing a tool kit.
    If the only tool you have is CPCs, which is essentially 
negative, it seems to me what we have proven beyond a shadow of 
a doubt in the last 12 years is you are not going to change 
much structurally. I would quickly add that it is important 
that we have used the act to free some people, and I do not 
want to trivialize this. It is very important that some people 
have been freed. Often, however, that is through the 
intervention of people like yourself and others in individual 
cases.
    As a broad matter, we just have not had much impact with 
this CPC dominated approach. I fully support the CPCs. I like 
the idea of tiers. This is why I emphasize the programs. I 
think it was Joe that said, ``carrots and sticks.'' You know, 
that is not quite the way I would put it, but it makes the 
point. We do not give other countries like Vietnam reasons why 
it is in their interests to change what they are doing. That is 
why they went back to what they were doing before after they 
promised us they would stop requiring forced renunciations and 
they would rebuild all the churches, et cetera, et cetera. As 
soon as they got free of the incentive of the moment, they just 
went back to the way they always do things. We need to provide 
them reasons for changing, and that is what has been missing in 
our policy in Vietnam, and frankly most other countries.
    Mr. Smith. Let me just say, Mr. Grim, according to the 
UNHCR there are some 43 million people of interest including 27 
million IDPs and 15.6 million refugees. In your analysis, how 
many of those, if it has been modified, would you attribute to 
religious persecution? Is there a breakout?
    Mr. Grim. That is an excellent question and one that we are 
studying this summer. It is very difficult to study that 
question and in short, no, there is not a good estimate of how 
many of those have been displaced internally or across borders 
due to religion-related reasons. But it is very difficult to 
get at because the data exists on how many people in a country 
have been displaced or are there from someplace else, but then 
the explanation of their stories is almost never documented by 
the U.N. So, we are looking into that, but I am not hopeful 
that we will be able to get it in short order.
    Mr. Smith. Is that something, Mr. Farr, that the office 
working with our refugee folks ought to be looking at, the 
further breakdown--the profile of the refugees and the IDPs?
    Mr. Farr. There was language in the original IRFA for the 
Commission to look a little bit into this problem, which they 
did. They did a study, which was a very good study.
    I think that the Office of Religious Freedom ought to be 
certainly very, very aware of the work that Brian Grim is doing 
and is about to produce this summer and on an ongoing basis. 
But I would also add, Mr. Chairman, that a dearth of 
information is not the main problem that we have. We know this 
is a major, major problem. We know where the problem exists, we 
just have not learned the lessons about how to address it and 
get it in front of the problem rather then just reacting to it.
    Mr. Smith. Dr. Grim, you pointed out in your statement that 
the data does not measure the severity of the harassment or 
persecution; is there a way to better delineate that? For 
example, you know the Falun Gong in China, the number of 
tortured well exceed several thousands--tortured to death. And 
obviously the Buddhists and the Uyghurs and the Christians 
suffer similar fates. Is there a way to get to severity?
    Mr. Grim. Yes. Our measures do count severity of 
persecution within a country, but we just do not itemize it by 
which religious groups face the most problems. And it is a 
little tricky to get that exactly, but I think our data at 
least reflects what is going on in a country and then the 
extent to which each religious group faces restrictions 
globally.
    Mr. Smith. Let me ask all of you. One of the other hats I 
wear is working on the Helsinki Commission, and ODIHR, which is 
the human rights apparatus for the OSCE, has three special 
representatives; one on combating prejudice against Muslims, 
Christians and anti-Semitism. If you have any thoughts as to 
how the office interfaces with them, Mr. Farr, that would be 
helpful.
    But, you know we got the African Union, the Organization of 
America States and then the U.N. itself, all three of which 
have not done, in my opinion, what could be done on religious 
freedom. I mean, our biggest fear in the last several months 
has been a resolution that might have passed at the U.N. that 
would have, as I said earlier, been catastrophic to individual 
religious freedom; thankfully, lead by Pakistan, it was a 
resolution tabled at the Human Rights Council that did not go 
that route.
    And I have spoken to a number of Muslim leaders including 
the head of the OIC, their Ambassador to the U.N., and they 
seem pleased with that outcome. So, you know, maybe we are 
making some traction with our friends in the Muslim community. 
But how can those regional bodies work more closely with the 
IRFA Office? Have we empowered it enough through legislation, 
and that would include the OSCE, which I think is trying at 
least to address religious persecution?
    Mr. Farr. I am not intimately familiar with the 
relationship of the Office to the ODIHR contemporarily 
speaking, Mr. Chairman. But I do know that the Office of 
International Religious Freedom is staffed, as you know, by 
some very committed, very intelligent, excellent Foreign 
Service officers and civil servants. And I would be very 
surprised if they did not have this problem on their screen.
    For what it is worth, I think it is a mistake to balkanize 
religious freedom. I think it is a mistake to have an office 
for the Jews and the Muslims and the thises and the thats. It 
is a human problem. It is a problem for all societies, which is 
why I believe the religious freedom ambassador ought to be over 
all of this for the United States.
    I fear that in Europe some of this is just the way they do 
things. They carve these things up. I think we should avoid 
this.
    But to answer your question, I have confidence in the 
office. My successors there, I know these people, they are 
doing a great job. And I bet you if you ask them that question, 
they will give you a good answer.
    Mr. Grieboski. Mr. Chairman, your question about the 
special representatives, it is fundamentally important and I 
support Tom's position on this. And what I wanted to mention 
about this is my concern that when we have the division among 
the three different special representatives, the first two 
special representatives you mentioned of the Muslims and the 
Jews is very clear. But then the third, which talks about 
Christianaphobia is a title too long for even the special 
representative to remember. Because the duties and 
responsibilities for that person are not just Christianaphobia, 
they are Christianaphobia plus. And so within the OSCE 
structure, anyone within the ODIHR system, there is not the 
appropriate structuralization of the issue of religious liberty 
but instead are issue areas that are not well coordinated above 
those special representatives.
    At the same time, there has also been a movement within the 
OSCE system which you yourself have spoken on, Mr. Chairman, 
away from protecting rights and talking more about tolerance. 
And so it is a much looser support for fundamental rights then 
originally it was within the structure.
    As for the question of the multilateralism, I mentioned in 
my written testimony that we have done a very good job, I 
think, in the State Department with what limited capacity they 
had to do it to advance religious liberty on a bilateral basis. 
But we have not seen that same overactive and impressive 
engagement in a multi-lateral form. I understand that 
Ambassador-at-Large Johnson Cook was just at the United Nations 
last week, but 1 week a year is not enough to actually have 
that engagement, which comes back to my encouragement that the 
IRF office be granted the resources within a line item, but 
also the access within an S/ system to be able to engage with 
these multi-lateral fora.
    Mr. Smith. Final question, and I will submit more for the 
record because I have about another 20. But I would ask you, 
Mr. Farr, how seriously does the State Department religious 
freedom office regard the hearings--the recommendations 
especially--for granting a country CPC that come from the 
Commission? Is it seen as a rival? Is it seen as a very useful 
mirror as to what is happening and, you know, hey, we missed 
that?
    I mean, one of the things that I have learned in this job, 
and I learn it more everyday, is that I take seriously 
criticism because I often learn that there is a germ of truth, 
maybe a whole lot of truth to it, and you are missing 
something. And the whole idea of establishing the Commission in 
the first place was to be a parallel effort buoyed by what we 
do in Congress. And I probably have held more than 300 human 
rights hearings as chairman of Helsinki and the subcommittee 
that I chair--and I am not kidding, well over 300--but that is 
still not enough. And the Commission travels, it focuses, but 
does the State Department take it seriously or do they see it 
as a nuisance?
    Mr. Farr. It is a great question, Mr. Chairman.
    My view is that the Office of International Religious 
Freedom does take it seriously, but the State Department is a 
very different thing from the Office of International Religious 
Freedom.
    This is a tiny office in a huge bureaucracy. I think the 
attitude of the Office of International Religious Freedom, at 
least when I was there and what I know of them now, is that 
there are many possibilities to work in coordination with the 
Commission. For example good cop/bad cop; to be able to go to 
countries and say, ``Look, the Commission is making all of this 
trouble, you know, on the Hill and let us work together to 
avoid this.'' I mean, that is just one small example of how 
these two can work in tandem.
    But I do think that more broadly the State Department views 
the Commission as an irritant. That it does not pay more than 
just lip service to many of its recommendations over the years, 
many of which have been extraordinarily good.
    I support the reauthorization of the Commission. I think it 
is very important. I believe it is very important for the 
Commission to aim more of its fire on the State Department.
    Joe and I may disagree a bit on this. But I think that the 
State Department needs scrutiny. More people need to reveal 
what it is not doing. And the reality is, Mr. Chairman, and 
this is not a criticism of the Commission, but it does not 
matter who is on the Commission, how much money they get, what 
their mandate is in the IRFA, if the State Department does not 
do its job, this policy is going to fail. And so this is why I 
say that the provisions of H.R. 1856 that focus on the State 
Department are vital and I urge you and Mr. Wolf and others to 
hold the line. Because I think there is going to be some 
attempt to roll some of these things back.
    Mr. Grieboski. Mr. Chairman, I think my opinion on the 
Commission is quite well known. But I actually will back one 
part of what Tom just said. I will stand on the rooftops and 
support the reauthorization of the Commission from now until 
the end of time if the Commission takes on a different 
responsibility then being a watchdog. I think the watchdog role 
is a part of the Commission's responsibility, but not its only 
responsibility.
    The Commission is the only agency, the only quasi-
governmental agency with the capacity and the authority to be 
the mediator and integrator of religious liberty into all other 
government agencies.
    We talked about training and education of ambassadors and 
Foreign Service officers earlier. I cannot overemphasize the 
importance of also training our CIA station chiefs and our 
intelligence officers. That our intelligence agencies need to 
be studying this issue and dealing with this issue. The State 
Department cannot do that. The CIA will not do not of its own 
free will. The Commission is the one body that has the capacity 
and the ability and the authority to do that.
    And if you will indulge me with a comparison, part of my 
concern about the oversight role and the watchdog role of 
USCIRF is that I am not familiar with an oversight agency that 
matches person-for-person on personnel or on resources. In that 
sense, if I could make the comparison, that would be like a 
principal hiring three teachers to educate 1,000 students on 
every subject in the school and then hiring three consultants 
on the side, but paying those teachers by the way minimum wage 
and not giving them any resources to have teaching material. 
But at the same time, hiring three outside consultants, paying 
them $0.25 million a year, giving them unlimited resources to 
write reports about the teachers and why they are not teaching 
enough or why their capacity is not there.
    I think the Commission can do a tremendous job in making 
sure that the State Department has the capacity to do what it 
does as long as the two are engaged, as long as the two are 
cooperating and as long as there is not that competition, which 
Tom so appropriately discussed. But I think the Commission with 
both its resources and the tremendous capacity of its 
Commissioners, that they can do more than simply tell the State 
Department what it is not doing right.
    Mr. Smith. One final question; let me ask all of you for 
any recommendations you may have as we go to markup, in terms 
of text. You have already made a number of outstanding 
recommendations, which I hope we can incorporate into the bill.
    But let me just ask you with regards to inter-religious 
dialogue among religions themselves. I have gotten to know a 
man named Mustafa Ceric, the Grand Mufti of Bosnia very, very 
well. I was there when they re-interred 800 people who were 
slaughtered during the genocide in Srebrenica. I spent a lot of 
time with him. I hosted him here. I have been back to Sarajevo 
to meet with him. Here is a man who really, genuinely, in his 
heart of hearts, believes in peace, in respecting all 
religions, and I do believe that is the model that we need to 
lift up and say among all religions that is what we all need to 
be following. He has been a part of the Vatican dialogue among 
religious leaders globally. And it just seems to me there is 
not enough of that. There needs to be a whole lot more among 
the Orthodox Church and all the other churches.
    Recently I met with an imam and a bishop who were literally 
traveling throughout Nigeria talking about reconciliation and 
tolerance for one another. And, of course, Minister Bhatti ate, 
slept and breathed that. Sadly, it lead to his assassination.
    I should have asked Mr. Leo this, but Mr. Farr, you might 
want to speak to this or anyone else. Is the Office and is the 
Commission, in your view, reaching out to religious bodies 
robustly enough, like the Vatican? I mean, we have a man, His 
Beatitude Jonah, who heads up the Orthodox Church here in the 
United States, and who profoundly believes in religious 
dialogue and wants to work across lines for human rights and 
respect for those rights. Do we do it enough?
    Mr. Farr. I believe both the Commission and the Office of 
International Religious Freedom are doing a good deal of this, 
Mr. Chairman. Whether or not they are doing enough, I think the 
answer is probably no. But I would emphasize that dialogue for 
the sake of dialogue is not a policy. What is needed is the 
targeting of religious leaders and religious actors who are 
influential. Shahbaz Bhatti was killed by people who have a 
particular interpretation of Islam and the place of blasphemy 
in Islam. We should think about ways to change the dialogue 
within Pakistan on the issue of blasphemy.
    So, it is not just talking. I mean, I am in an atmosphere 
of where there are any lists religious dialogues that go on and 
on a glacial pace toward oblivion. They need to have a purpose. 
And this is why I come back again and again to the programs. I 
fear talk is cheap, and we have had an awful lot of talk.
    So the answer to your question is yes, it is valuable, it 
needs to be targeted. And I think the office will do a good job 
of this is given the resources, the mandate and the authority 
to do it.
    Mr. Grim. As a side comment I can make on social 
hostilities involving in religion that the research that I have 
done both outside of Pew and at Pew sees a close connection 
between the level of social hostilities in a country and the 
government restrictions on religion.
    One observation I have of the State Department 
International Religious Freedom reports is that over the past 
several years the sections on social intolerance or societal 
intolerance toward others have become shorter. They have been 
doing a bit less reporting. I do not think necessarily because 
there is less to report, but for some reasons, maybe editorial 
reasons those sections are becoming shorter. So I think that is 
an important topic to be covering. It is not exactly on 
interfaith dialogue, but some of these sections have been 
reporting on interfaith dialogue sort of on the positive side 
but not covering all that is going on in the country with as 
much depth as they did maybe 5 years ago. So, I just offer that 
as an observation.
    Mr. Smith. You know, I do have one final question, if I 
could. And that is on the Human Rights Council. The Human 
Rights Commission was flawed, very very misguided for years. I 
would go to it in Geneva, not every year but almost every year, 
and found that their only agenda was to bash Israel. Even 
getting a Cuba resolution and a resolution on Sudan was very, 
very difficult.
    Now the Human Right Council was supposed to replace that. 
So far we have seen it is ``deja vu all over again,'' to quote 
Yogi Berra. It is the same old, same old.
    We now have a seat on there. Are we using it wisely to 
promote religious freedom at the Human Rights Council?
    Mr. Farr. The Human Rights Council is a farce, but I am 
going to revert to my diplomatic demeanor, for a moment, and 
say that we have to be a player. We have to be there, even in a 
farce, because this is the way the international community 
wants to play the game and we have to be part of this. I have 
not paid as much attention to this perhaps as I should, but 
when I do I do see that we are sending some good people.
    I know NGOs attend these things and work very hard to get 
their voices heard, Mr. Chairman. So I would say that it is 
important for us to keep working this issue. It has been out 
there for a long time. You remember in the 1990s we lost every 
year on China, again and again. I used to be involved in 
meetings about how we are going change this. Well, we came up 
with a bright idea and the Chinese beat us every time. It was 
an attempt to condemn the Chinese for human rights abuses and 
religious persecution and they went out and bought the votes 
and did everything they needed to defeat us. And they won every 
time. And so, this is a longstanding problem.
    If I could just say one other thing in response to Joe 
Grieboski's point about the Commission. As I said, I agree with 
him about the need to integrate this into other aspects of the 
government, particularly into trade and economic issues. I am 
not sure the Commission is the body to do that. Joe believe it 
has the authority to do it. I believe that it is that National 
Security official, I forget the title of it. I believe I am 
correct that in this bill, I may be wrong, that this is made 
mandatory. Frankly, I have forgotten. Forgive me. But if it is 
not mandatory that there ought to be an NSC official involved 
in religious freedom, an advisor to the President, it should be 
mandatory. And this is what this person ought to be doing; 
looking at this issue of how to involve all of the activities 
of the United States, all the executive agencies and 
coordinating them. This is where this ought to be done, in my 
view, rather than the Commission.
    Mr. Smith. Any final words from any of our witnesses before 
we conclude?
    Again, I want to thank you so much for your passion and 
commitment to religious freedom, for your testimony today, your 
time, and above all for your recommendations, which will help 
us, hopefully, craft a good reauthorization bill. So thank you 
so much.
    The hearing is adjourned.
    [Whereupon, at 12:08 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


             <F-dash>\<diamond><box><natural><acctof>a<Rx> 
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



           <F-dash>\\<box>tt<box><natural><ellipse><ellipse>
                  <Hoarfrost><acctof><careof>t<star>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            <F-dash>\<Copyright>a<natural><Rx>a<star>a<Rx> 
      <because><F-dash><Register>s<ellipse><ellipse>\<box><pound>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            <F-dash>\<Copyright>a<natural><Rx>a<star>a<Rx> 
             <because><F-dash><Register>s<ellipse><ellipse>
                 <r-because><natural><careof><acctof>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
